<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:14 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven, Cochran, Murkowski, Cassidy, 
Shaheen, Tester, Baldwin, and Mikulski.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JEH JOHNSON, SECRETARY


                opening statement of senator john hoeven


    Senator Hoeven. I will call this subcommittee hearing to 
order. I would like to thank Secretary Johnson for joining us.
    I also would like to thank Ranking Member Shaheen for being 
here, as well as also Senator Tester and Senator Baldwin. In 
addition, I would like to thank our Appropriations chairman, 
Senator Cochran, for joining us as well.
    I have an opening statement. I will then turn to Senator 
Shaheen for an opening statement, as well as comments from any 
other Senators.
    And then, Secretary, we would, certainly, welcome your 
opening statement and then proceed to questions.
    Again, thank you for being with us today. We appreciate it 
very much.
    In the 12 years that have passed since the creation of the 
Department, threats to the homeland have continued to evolve. 
These threats proliferate in a world that is more 
interconnected than ever before, and we need the Department of 
Homeland Security (DHS) to be prepared to face them.
    Many of the latest incidents have not been new or novel in 
their approach. Data breaches, fence-jumpers, and airspace 
incursions, we have seen these types of incidents before.
    For example, Verizon's 2015 data breach report notes that 
social engineering, phishing scams, and poor cyber hygiene are 
still responsible for the vast majority of cyber espionage and 
network intrusions.
    In 1994, over 2 decades ago, an individual tried to crash 
his Cessna into the White House. And fence-jumpers have been a 
reality for the Secret Service for even longer than that.
    So today, these incidents should be met with a clear 
response. DHS and partner agencies need to be up to the 
challenge.
    The context for these concerns today is the fiscal year 
2016 budget, which we are here to discuss and review.
    Now the President sent a request that exceeds budget caps 
agreed to in the Budget Control Act. Since Congress will abide 
by spending limits, we appropriators have to do our work and 
sharpen our pencils for this 2016 process.
    With a discretionary base appropriation of $40 billion and 
225,000 employees, DHS has significant resources at its 
disposal. Those resources need to be applied both effectively 
and judiciously in the face of fiscal constraints.
    As such, my priority as chairman is to support the 
Department's many important operations as robustly as possible, 
but that means staying within budget and that means measuring 
the return on investment and holding the Department 
responsible, accountable for outcomes.
    I want to start with border security. Senator Shaheen and I 
were in Texas a couple weeks ago to spend some time with 
Customs and Border Protection (CBP), Immigration and Customs 
Enforcement (ICE), the Coast Guard, and others. We saw the need 
for more technology, for better situational awareness, and for 
more tactical infrastructure like better roads and fencing.
    But what is the right mix? What outcomes can we achieve 
with current resources? And what can we expect, if we invest 
more? That has to be measured.
    The American people need a clear picture of border security 
measures. How many illegal aliens are coming across? How many 
are getting away? Of those we apprehend, how many are removed? 
How long does it take to get a disposition, particularly for 
families and unaccompanied alien children?
    The border security measures go hand-in-hand with other 
measures: the information on those legally entering our country 
and when they exit, data on employers using E-Verify, and how 
we are doing in addressing visa overstays.
    Over the past few weeks of hearings, we discussed measures 
on other aspects of DHS operations, including preparedness 
levels and the effectiveness of grant funding.
    At the same time, building DHS into an organization to 
execute that mission effectively and efficiently remains a work 
in progress, as you and I have discussed, Mr. Secretary.
    The DHS mission, whether it is border security, immigration 
enforcement, protection of the President, preparedness in the 
face of all hazards, and other issues, is compelling and 
challenging. We need a skilled frontline work force that has 
strong leadership and the right tools to do the job. And we 
need good metrics to track DHS performance.
    I know you're committed as well to the better integration 
of the 22 agencies that comprise DHS. That is something that 
you and I talked about right at the outset. That 
interoperability versus a silo approach is a very important 
part of your ``Unity of Effort'' initiative.
    I look forward to hearing more about your plans and views 
today, as well as how we move DHS to be more agile in 
responding to evolving threats.
    With that, I would like to recognize Senator Shaheen for 
her comments.


                  statement of senator jeanne shaheen


    Senator Shaheen. Thank you, Mr. Chairman.
    I am very pleased to join you for this hearing on the 
budget of the Department of Homeland Security. I'm also pleased 
that we have the chair and ranking member of the full 
committee, Senators Cochran and Mikulski, who are with us this 
afternoon.
    Mr. Secretary, welcome. First, I want to begin by thanking 
you for your assistance as we wrapped up the 2015 
appropriations process, and note that in the first 5 years of 
the existence of the Department of Homeland Security, you 
received an annual appropriation at the beginning of each 
fiscal year. In 2015, you were the last Federal agency to 
receive a full appropriation.
    I appreciate that this costly delay was due to a 
disagreement over the administration's immigration enforcement 
priorities, and I firmly believe that the Federal court system 
is the appropriate venue to resolve this issue. Because the 
courts are dealing with this case as we speak, I hope that we 
will not have that interfere with the ability to get a budget 
for the Department this year.
    The Congressional Budget Office (CBO) scored the net 
discretionary budget request for the Department of Homeland 
Security for fiscal year 2016 at $41.4 billion. Excluding the 
$6.7 billion disaster cap adjustment and $160 million in Coast 
Guard overseas contingency funding, this represents a $1.7 
billion increase, or about 4 percent, over fiscal year 2015.
    Your budget for 2016 emphasizes border security, 
immigration enforcement, Secret Service protection activities, 
cybersecurity, emergency communications, and resilience 
programs. However, these priorities seem to come at the expense 
of funding for the Coast Guard recapitalization and first 
responder grants, which are both cut below fiscal year 2015 
levels.
    If the Subcommittee is forced to work within the 
constraints of the current discretionary budget cap, which 
essentially restricts us to the 2015 funding level, I think we 
will be hard-pressed to fund all of these priorities in 
addition to addressing the reductions that I have some concerns 
about.
    As Senator Hoeven mentioned, he and I had the opportunity 
to spend 4 enlightening days looking at border security and 
immigration enforcement efforts along the southwest border in 
Texas. Because I've had a chance to speak with you and share 
with you my views on that trip as we came away I won't go into 
it. But I would just say that I was very impressed with the 
professionalism of the people who work for the Department of 
Homeland Security and with their effort to work together to get 
out of the silos that we have too often worked in, in the 
Federal Government, and to work not only cooperatively with 
each other but with other local law enforcement agencies and 
authorities on both sides of the border.
    Your agency also protects us from a wide variety of threats 
originating at home and coming from abroad. We recently 
observed the 2-year anniversary of the Boston Marathon bombing, 
an attack that struck very close to home for me and to others 
of us from New England. Coupling that somber anniversary with 
the influx of foreign fighters into Syria and attempts by ISIS 
and AQAP to inspire attacks against the United States, I am 
reminded that we must remain ever vigilant against their 
hateful ideology.
    As we speak, cyber criminals are conducting a relentless 
assault against government, corporate, and personal computer 
networks. Your budget seeks to enhance information-sharing and 
strengthen systems to detect and prevent these intrusions. 
Those are increases that I wholeheartedly support because this 
threat is ever evolving and growing.
    And finally, as we recover from devastating tornadoes that 
ravaged the Midwest, and prepare for the beginning of the 
Atlantic hurricane season, we are reminded of the deadly threat 
that nature itself can pose. We just saw that on full display 
in Nepal this past weekend, and I just want to commend the 
Department for the search and rescue teams that are helping 
with that recovery.
    So, Mr. Secretary, I look forward to your testimony and to 
the discussion today, and appreciate your leadership and your 
commitment to tackle the diverse and prolific set of homeland 
security challenges head on. Thank you.
    Senator Hoeven. Thank you, Senator Shaheen.
    At this point, I would turn to both our chairman of the 
full Appropriations Committee, and then the ranking member, for 
any comment that they might have at the outset.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, without delaying the hearing 
any further, and giving us an opportunity to hear from our 
witness from this agency of the Federal Government, let me just 
say that as we continue to analyze the budgetary needs and the 
demands that are being made throughout the jurisdiction of this 
subcommittee, I believe we have an opportunity to take some 
action prior to the start of other important ship programs by 
maintaining the national security cutter production line by 
adding a ninth ship. I think there's a strategy for assuring 
that this makes sense and will pay off for being able to carry 
out the responsibilities.
    We need to be sure that we provide the ships and equipment 
our men and women in uniform desperately need, so they can 
carry out their responsibilities and missions.
    We also know that we're living in a complex world with 
ever-changing threats to our nation's security. I look forward 
to hearing your thoughts on the impact of the president's 
budget on current and future operations carried out by your 
Department.
    Senator Hoeven. Thank you, Senator.
    I would turn to our ranking member for the full committee, 
Senator Mikulski.


                statement of senator barbara a. mikulski


    Senator Mikulski. Thank you very much, Mr. Chairman. I will 
be brief. I know we want to hear from the Secretary.
    First, I'd like to really compliment you and Senator 
Shaheen for the excellent way that you proceeded when we were 
resolving the so-called cromnibus in the beginning of this 
Congress. It was a little bit white knuckle, and we were a 
little bit afraid it was going to get bareknuckle, but we 
knuckled down and got the job done.
    I would hope that we would not have a similar crisis again, 
because the men and women who do all of the wonderful work in 
homeland security that protect this Nation in so many different 
ways need the reliability and certainty of an appropriations 
process.
    Second, as I look at these many demands, I say to my 
friends and those who are advocating lifting the caps in 
defense, something that we will be debated as we move forward, 
there is also, in addition to defending America over there, we 
need to protect America here. If we're going to lift up the 
caps for defense, I also think we should lift the caps on 
domestic funding, and homeland security should be one at the of 
top the list.
    I will now stop and look forward to your testimony.
    Senator Hoeven. Thank you, Senator Mikulski. Thank you for 
being here today.
    I would turn to our other members to see if there are any 
others who wish to offer an opening statement.
    Hearing none, again, Secretary Johnson, we appreciate very 
much you being here and would welcome your opening testimony.


                 summary statement of hon. jeh johnson


    Secretary Johnson. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Shaheen, Ranking Member 
Mikulski, and your colleagues, you have my printed written 
advanced statement. I will not read it. I will just simply 
offer a few things.
    First of all, I want to thank the Senators for your 
leadership in getting us a full-year appropriation for fiscal 
year 2015. That was a difficult time. It was difficult period. 
On behalf of the 225,000 men and women of my Department, thank 
you for getting us there to a full-year appropriation.
    In our judgment, the budget submission for fiscal year 2016 
at the $41.2 billion level is a good budget submission. I am 
pleased that it got a relatively good reception on the House 
side, when I testified there about a month ago. It funds all of 
our key homeland security priorities.
    At the sequester level, that would represent a major step 
backward in homeland security. I should point out that my 
Department probably, almost certainly more than any other, 
interacts with the American public more than any other 
department. The Transportation Security Administration (TSA) 
alone interacts with 1.8 million people per day.
    Our budget submission represents a solid step forward in 
terms of budget security, aviation security, cybersecurity, 
enhancing the mission, and improving the mission of the Secret 
Service. If we have to live within sequestration levels because 
Congress does not remove sequestration, it will represent a 
major step backward, in my view, to levels that will not 
adequately fund the things we need to do on behalf of the 
American people.
    Let's not forget that we have within our budget automatic 
pay increases tied to inflation and other things that we have 
to pay for. So at the sequester level, it will be very, very 
difficult to do the things we need to do for the American 
people.
    The other thing I would like subcommittee members to know 
is that, in calendar year 2015, I've made as a major priority 
for my Department of management reform, reforming the way in 
which we deliver our services to be more effective and more 
efficient.
    So as the chairman has pointed out, for too long, we have 
pursued our mission through stovepipes. We have, over the last 
year, embarked on a unity of effort initiative to bring a more 
strategic and centralized approach to acquisition matters, to 
budget matters. We have embarked upon the southern border 
campaign strategy for the southern border to have a more DHS-
wide strategic approach there. We have realigned major 
headquarters functions.
    We are working to get off the Government Accountability 
Office (GAO) high-risk list. We are on a path to do that soon. 
GAO has referred to us as a government agency that is a model 
for how to get off the GAO high-risk list.
    We are working very aggressively to improve morale within 
the organization. I have an aggressive, active campaign to do 
that--more transparency in hiring, promotion, training, and 
mentoring opportunities. I believe that morale is improving 
within the Department of Homeland Security.
    Last but not least, I want to thank the Senate for your 
partnership in helping us to fill all the vacancies. When I 
came into office, there were a number of vacancies in the 
Department. Over the last 15, 16 months, we have had 12 Senate-
confirmed presidential appointments to the Department. We have 
three new Assistant Secretaries.
    In addition to that, yesterday, the President nominated our 
choice to be the next TSA administrator, Vice Admiral Pete 
Neffenger, who I think is a terrific choice. He is an 
incredibly dedicated and capable military officer, and I urge 
the Senate to act quickly on his nomination.
    All that said, I look forward to your questions.
    [The statement follows:]

               Prepared Statement of Hon. Jeh C. Johnson
                              introduction
    Chairman Hoeven, Ranking Member Shaheen, and members of the 
subcommittee:
    On behalf of the 225,000 men and women of the Department of 
Homeland Security (DHS), I thank you for your continued support. We 
appreciate the hard work and leadership many on this subcommittee 
provided in delivering a full-year fiscal year 2015 appropriation for 
DHS under very difficult circumstances. The $39.7 billion in net 
discretionary funding provided by Congress for this year fully funds 
our vital homeland security missions.
    Now, we turn to fiscal year 2016.
    The President's fiscal year 2016 Budget for DHS is $64.9 billion in 
total budget authority, $51.9 billion in gross discretionary funding, 
$41.2 billion in net discretionary funding, and $4.0 billion in 
discretionary fees. As part of total DHS funding, $6.7 billion for the 
Disaster Relief Fund (DRF) is provided, pursuant to the Budget Control 
Act of 2011.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The President's budget request for fiscal year 2016 also proposes 
to end sequestration. Unless Congress acts to prevent it, sequestration 
kicks in again in 2016. This would bring homeland security funding to 
its lowest level, adjusted for inflation, in a decade. Now is not the 
time to take such a huge step backward in our Nation's homeland 
security funding. At a sequester level, funding for the Department 
would be inadequate to continue paying for our current workforce and 
programs. Meanwhile, pay and inflation costs would automatically 
increase notwithstanding sequestration. Many other key initiatives that 
were funded in fiscal year 2015 would be discontinued or sharply 
curtailed. These initiatives include added border security on our 
southern border, more CBP officers, more ICE attorneys for immigration 
enforcement, and more HSI agents. Furthermore, the fiscal year 2016 
budget includes requests to implement recommendations of the United 
States Secret Service Protective Missions Panel. If sequestration 
returns, our ability to fully fund this, too, is jeopardized. We need 
to move forward, not backward, in our funding of homeland security.
    Our fiscal year 2016 Budget focuses resources in each of the 
Department's mission areas: prevent terrorism and enhance security, 
secure and manage our borders, enforce and administer our immigration 
laws, safeguard and secure cyberspace, and strengthen national 
preparedness and resilience.
    Since taking office in December 2013, I have also made management 
reform a top priority in the Department. In my view, improving the 
effectiveness and efficiency by which we pursue our missions is itself 
a homeland security imperative.
                counterterrorism and enhancing security
    As I have said many times, counterterrorism must remain the 
cornerstone of DHS's mission.
    Safeguarding critical infrastructure and implementation of layered 
security on land, in the air, and on the sea are essential to combating 
any terrorist threat. The Department has prioritized investments in 
technology and risk-based, intelligence-driven programs like the 
Transportation and Security Administration's (TSA) Pre.<SUP>TM</SUP> 
and Global Entry, and in the assets necessary to carry out DHS front-
line missions today and in the future. The President's fiscal year 2016 
Budget will fund key priorities including a DHS data framework, 
enhancing information sharing between critical vetting programs, and 
service life extension of radiation portal monitors to sustain 
compliance with the SAFE Port Act. In this mission area, the fiscal 
year 2016 President's Budget includes funding requests for the 
following key investments:
  --$3.7 billion for TSA screening operations to continue aviation 
        security at prior year levels, and more effectively align 
        passenger screening resources based on risk. These risk-based 
        security initiatives maximize security capabilities and 
        expedite the screening process for low-risk travelers.
  --Support for U.S. Customs and Border Protection's (CBP) Trusted 
        Traveler Programs, which provide expedited travel for pre-
        approved, low-risk travelers through dedicated lanes and 
        kiosks. CBP's Trusted Traveler Programs reached record numbers 
        of enrollment in fiscal year 2014. An additional 1.25 million 
        people enrolled in the agency's Trusted Traveler Programs 
        (Global Entry, SENTRI, NEXUS and FAST) this fiscal year to 
        bring total enrollment to more than 3.3 million members. Global 
        Entry, the agency's largest program with more than 1.7 million 
        members, is operational at 42 U.S. airports and 12 Preclearance 
        locations, serving 99 percent of incoming travelers to the 
        United States. CBP added nine Global Entry kiosk locations this 
        fiscal year and enrolled its one millionth member in NEXUS.
  --$101 million for Radiological and Nuclear Detection Equipment 
        Acquisition with which the Domestic Nuclear Detection Office 
        and other DHS components, including the Coast Guard, CBP, and 
        TSA, keep U.S. ports of entry safe and secure by detecting and 
        interdicting illicit radioactive and nuclear materials.
  --$94.5 million for Infrastructure Security Compliance funding to 
        secure America's high-risk chemical facilities through the 
        systematic regulation, inspection, and enforcement under the 
        authority of the Chemical Facility Anti-Terrorism Standards. 
        The request includes $16 million to enhance regulation of the 
        sale and transfer of ammonium nitrate.
  --$86.7 million to enhance White House Complex security, consistent 
        with the recommendations of the United States Secret Service 
        (USSS) Protective Missions Panel.
  --$83.3 million for the BioWatch Program to provide detection and 
        early warning of the intentional release of select aerosolized 
        biological agents.
  --$29.4 million for Visa Information Update System. This new program 
        will allow non-immigrant visa holders to provide updated 
        biographic and travel related information through a public 
        website. The system will complement the existing visa 
        application process and enhance CBP's ability to make pre-
        travel risk determinations.
  --$65.8 million for the National Protection and Programs Directorate 
        Replacement Biometric System. This system will replace the 
        legacy Automated Biometric Identification System. In addition 
        to reduced operating costs, the new system will have improved 
        detection capabilities, more efficient processing, and improved 
        scalability.
                   securing and managing our borders
    The Department has committed historic levels of front-line 
personnel, technology, and infrastructure to border security to reduce 
the flow of illegal immigrants and illicit contraband while fostering 
legal trade and travel. Over time, this investment has yielded positive 
results. The reality is that illegal migration is a fraction of what it 
used to be. In the year 2000, apprehensions on the southern border--
which are an indicator of total attempts to cross the border--exceeded 
1.6 million. Apprehensions on the southern border have dropped 
considerably since then, to around 400,000 a year in recent years. 
Apprehensions are in fact at their lowest rate since the 1970s.
                            southwest border
         usbp apprehensions fiscal year 2000--fiscal year 2014
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These numbers are no doubt partially due to economic conditions and 
trends in the U.S., Mexico and Central America, but also due to the 
very large investment this Nation has made in border security over the 
last 15 years. Today's Border Patrol has the largest deployment of 
people, vehicles, aircraft, boats and equipment along the southwest 
border in its 90-year history.
    Without a doubt, we had a challenge last summer, with the 
unprecedented number of unaccompanied children and others who crossed a 
narrow area of our southern border into the Rio Grande Valley, in 
search of a family member and a better life in this country. We 
responded aggressively with more people and resources on the southern 
border. Beginning in mid-June 2014 the numbers of unaccompanied 
children crossing the southern border declined sharply. As the chart 
below reflects, the number of unaccompanied children apprehended at the 
southern border, month-to-month, are the lowest it has been in several 
years. As of March 31, 2015, the total number for the fiscal year is 45 
percent less than it was the same time last year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Meanwhile, as the chart below reflects, month-to-month, total 
apprehensions on the southern border are also significantly lower than 
they were this time over the last several years. Through March 31, 
2015, total apprehensions this fiscal year is 28 percent less than it 
was the same time last year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    But, we are not declaring ``mission accomplished'' when it comes to 
border security. I am committed to building an even more secure border.
    In the future, DHS will more effectively execute its border 
security responsibilities by implementing our new DHS-wide, inter-
component Southern Border Campaign for securing the U.S. Southern 
Border and approaches. This Campaign will direct DHS resources in a 
much more collaborative fashion with pre-identified, Secretary-
approved, outcomes and targets for the range of threats and challenges, 
including illegal migration, illegal drug, human and arms trafficking, 
the illicit financing of all these operations, and the terrorist 
threat. The fiscal year 2016 Budget supports this effort by requesting 
resources needed to support officer and agent staffing along the 
border, maintaining all statutory personnel floors, while supporting 
the 2,000 additional CBP officers first funded in fiscal year 2014. The 
Budget retains critical border patrol, watch-list, and targeting 
technology that enhance the capabilities of front-line officers and 
agents, and investments in Coast Guard recapitalization. Funding is 
included for securing and managing our borders in the following key 
areas:
  --Salaries, benefits, and operating costs for 21,370 Border Patrol 
        agents and 23,871 CBP officers.
  --Resources to complete the hiring and training of up to 2,000 new 
        CBP officers, to achieve a total end-strength of 23,871 CBP 
        officers. This effort, which commenced in fiscal year 2014, is 
        already yielding faster processing and inspection of passengers 
        and cargo at U.S. ports of entry, as well as more seizures of 
        illegal items, such as drugs, guns, and counterfeit goods.
  --Resources for Coast Guard port security screening to secure key 
        transportation nodes through security/background checks to 
        ensure unauthorized and illicit individuals do not gain access 
        to, or disrupt, key transportation and commerce nodes. All 
        crew, passengers, and cargo of vessels over 300 tons are 
        screened prior to arrival in U.S. waters, to mitigate potential 
        risks to our borders.
  --$373 million to maintain the necessary infrastructure and 
        technology along the Nation's borders to ensure law enforcement 
        personnel are supported with effective surveillance technology 
        to improve their ability to detect and interdict illegal 
        activity in a safer environment.
  --Provides funds for the costs associated with apprehension and care 
        of unaccompanied children. A portion of these funds will be 
        used to prepare facilities for families and unaccompanied 
        children in the event of a surge that exceeds prior year 
        apprehension levels. The request proposes up to $162 million in 
        contingency obligation authority--enabling CBP and Immigration 
        and Customs Enforcement (ICE) to respond effectively in the 
        event migration volume significantly surpasses prior-year 
        levels.
  --Support for Coast Guard recapitalization to include $340 million 
        for production of six Fast Response Cutters (FRCs); $102 
        million to convert Air National Guard C-27J aircraft for Coast 
        Guard use; $91.4 million for National Security Cutter (NSC) 
        structural enhancement and post-delivery activities; and $18.5 
        million to complete preliminary design evaluation of the 
        Offshore Patrol Cutter (OPC). Recapitalization will ensure 
        Coast Guard's continued ability to enforce laws and treaties 
        and guard the maritime domain against illegal activity and 
        potential acts of terrorism.
  --$85.3 million for the Non-Intrusive Inspection (NII) Equipment 
        Refresh and Recapitalization program. The NII systems allow for 
        passive radiation scanning and X-ray/gamma-ray imaging of cargo 
        and conveyances. Large scale NII systems perform 7.2 million 
        examinations per year at the ports of entry. In fiscal year 
        2016, DHS will begin replacement of NII systems that exceed 
        designed life expectancy.
  --$90 million for Coast Guard operations and maintenance funds to 
        support the delivery of new and more capable assets, including 
        $17.2 million in operations and maintenance for two new Coast 
        Guard FRCs, which will provide critical maritime border 
        security along the Atlantic and Gulf Coasts.
            enforcing and administering our immigration laws
    Each year Congress provides the Department resources for the 
prioritized removal of a portion of those living unlawfully in the 
United States. DHS allocates its resources to address the highest 
risks, targeting criminal aliens who pose a threat to public safety, 
recent border crossers, and employers who ignore our immigration laws. 
The fiscal year 2016 Budget continues the Administration's efforts to 
more effectively focus the enforcement system and our finite resources 
on identifying and removing high-priority individuals. For fiscal year 
2016, the Budget includes funds to enable ICE to maintain more than the 
34,000 detention beds and other funds requested for enforcing and 
administering our immigration laws, including the following:
  --$3.3 billion to provide safe, secure, and humane detention and 
        removal of removable individuals who are held in Government 
        custody because they present a risk of flight, a risk to public 
        safety, or are subject to mandatory detention.
      --Funds to supervise approximately 87,000 individuals (average 
        per day by the end of fiscal year 2016), including an 
        additional $94.5 million to support adult detention beds for 
        higher risk individuals and $122.5 million for the more cost-
        effective Alternatives to Detention program for those who are 
        not considered a threat to our communities. The Alternatives to 
        Detention program places low-risk individuals under various 
        forms of intensive supervision or electronic monitoring rather 
        than in detention.
      --$129.4 million to identify and apprehend immigration fugitives 
        in the United States, with an emphasis on those who pose the 
        greatest risk to national security and public safety.
      --$345.3 million to fund an increased number of family beds to 
        address the surge in families with children crossing the U.S. 
        southern border illegally.
      --The fiscal year 2016 President's Budget proposes $45 million of 
        Custody Operations funding be appropriated as five-year 
        funding. This extension of funds availability (from one to 5 
        years) allows ICE to improve the cost efficiency of detention 
        bed rates.
                  safeguarding and securing cyberspace
    Cybersecurity is of growing relevance to our national and economic 
security. At DHS, we are building an agile and responsive cybersecurity 
capability. Central to our efforts is the National Cybersecurity and 
Communications Integration Center, or NCCIC. We are finalizing plans to 
open a satellite office in Silicon Valley that will serve as another 
point of contact with our friends in the technology industry. It is 
also my hope that an office in Silicon Valley will help us steal more 
private sector talent to help us realize our plans. I am already in the 
hunt to hire a new NCCIC director. I am personally participating in 
efforts to look for a recognized all-star in the cybersecurity field, 
and I believe we are going to hire such a person soon. My goal is to 
make the NCCIC a 24/7 cybersecurity operations center that brings 
together government and business, working side by side to assess and 
reduce the risks to America's cyber systems. We are enabling the NCCIC 
to provide near real-time automated information sharing to the private 
sector. Later this year, we will be in a position to begin to accept 
cyber threat indicators from the private sector in automated near real-
time format.
    Funding in this request supports the Department's two flagship 
cyber acquisition programs--the National Cybersecurity Protection 
System and Continuous Diagnostics and Mitigation--which enhance 
cybersecurity situational awareness and information sharing. Funding is 
also included to sustain the USSS network of 46 Financial Crimes Task 
Forces and 38 Electronic Crimes Task Forces which continues to leverage 
USSS partnerships with international law enforcement agencies through 
overseas field offices. In addition, the Department recognizes that it 
must maintain its own robust internal network security to be a national 
leader in cybersecurity. Therefore, DHS is allocating resources across 
all of its Components that own information technology systems as part 
of a plan to fix known system vulnerabilities and is preparing to 
implement National Protection and Programs Directorate continuous 
monitoring services. The fiscal year 2016 request includes the 
following key resources for safeguarding and securing cyberspace:
  --The fiscal year 2016 President's Budget sustains ICE and USSS 
        resources to combat cyber-crime and investigate cyber-
        criminals.
  --$479.8 million for Network Security Deployment, including the 
        EINSTEIN3 Accelerated program which enables DHS to detect 
        malicious traffic targeting Federal (non-Department of Defense) 
        networks and prevent malicious traffic from harming those 
        networks.
  --$102.6 million for the Continuous Diagnostics and Mitigation 
        program which provides hardware, software, and services 
        designed to support activities that strengthen the operational 
        security of Federal (non-Department of Defense) networks.
  --$5.1 million for the CyberSkills Management Support Initiative. 
        This initiative is intended to bolster DHS's ability to develop 
        and maintain a robust cybersecurity workforce. As part of this 
        initiative, DHS will ensure consistent execution of 
        cybersecurity workforce support activities across the 
        Department by consolidating these activities within the Office 
        of the Chief Human Capital Officer, consistent with other 
        workforce management programs.
           strengthening national preparedness and resilience
    No matter the time of day or location on a map, a disaster can 
strike and overwhelm any of our Nation's communities. It is the goal of 
DHS to build a ready and resilient Nation through efforts to bolster 
disaster response information sharing and collaboration. The fiscal 
year 2016 President's Budget includes $9.6 billion to support the DRF, 
grant programs, disaster preparedness plans, and training for our 
homeland security and law enforcement partners. Working closely with 
State, local, and tribal governments across the country, the Federal 
Emergency Management Agency (FEMA) will continue to make progress in 
its ability to plan, prepare for, and respond to disasters. These 
investments include:
  --$7.4 billion in DRF funding to provide immediate and long-lasting 
        assistance to individuals and communities stricken by 
        emergencies and major disasters.
  --$2.2 billion in total grants funding to prepare state and local 
        governments to prevent, protect against, respond to, and 
        recover from incidents of terrorism and other catastrophic 
        events. These funds also include Firefighter Assistance and 
        Emergency Management Performance Grants that support local 
        first responders in achieving their missions.
    Understanding and preparing for the impacts of a changing climate 
is also an Administration priority. Climate change--including an 
increase in prolonged periods of high temperatures, changes in 
precipitation, an increase in wildfires, more severe droughts, 
permafrost thawing, ocean acidification, and sea-level rise--is already 
impacting the Nation and will exacerbate many of our existing 
vulnerabilities. Managing these risks requires deliberate preparation, 
close cooperation, and coordinated planning across government, as well 
as by other stakeholders. The fiscal year 2016 President's Budget 
includes the following climate resilience investments which will 
strengthen our preparedness for the effects of climate change:
  --$616 million in support of the President's Climate Resilience 
        Initiatives:
      --$400 million to support flood mapping and risk analysis 
        activities, which are essential to educating communities about 
        flood risk and minimizing the loss of life and property as a 
        result of flooding.
      --$200 million in Pre-Disaster Mitigation Grants for hazard 
        mitigation planning and/or project applications to mitigate 
        damage associated with natural disasters.
      --$10 million for analyses of climate change impacts on 
        infrastructure critical to national and economic security, and 
        national public health and safety.
      --$6 million for FEMA climate workshops and regional resilience 
        coordination.
                    reforming the management of dhs
    Since taking office in December 2013, I have made management reform 
a top priority in the Department. Improving the effectiveness and 
efficiency by which we pursue our missions is itself a homeland 
security imperative.
    Over the last 15 months, we have filled almost all the senior-level 
vacancies that existed in the Department. I want to express my 
gratitude to the Senate for confirming Russ Deyo, the President's 
nominee for Under Secretary for Management, the number 3 position 
within the Department. In February, the President also named Joe Clancy 
to be the Director of the Secret Service. On Tuesday, April 28, the 
President will announce his nominee to be the new Administrator of the 
TSA.
    Our ``Unity of Effort'' initiative has brought about a more 
centralized process for making decisions concerning budget requests, 
acquisition, strategy and other Departmental functions. Growing out of 
this initiative, we also realigned major DHS headquarters functions to 
consolidate like functions and promote efficiency. DHS is a very large 
conglomerate of 22 components that is only 12 years old. We are a large 
bureaucracy. In some ways, we are still finding our way, but we are 
headed in the right direction.
    We have established the Southern Border and Approaches Campaign, as 
I mentioned earlier. We have built what I believe to be more candid and 
inclusive senior leadership discussions and decisionmaking. We have 
realigned seven major Department headquarters functions. We are 
developing a number of human capital initiatives, including a 
Department-wide approach to joint rotational duty assignments. And we 
are embarking on the Acquisition Innovation in Motion (AIM) initiative, 
which will be an ongoing and recurring set of activities to enhance the 
way the Department does business with the private sector.
    DHS is one of 16 departments and agencies on Government 
Accountability Office's (GAO) so-called ``High Risk List.'' DHS has 
been on that list since DHS was created in 2003, simply by virtue of 
the large realignment of government it took to create the Department. 
We are on a path to get off that list soon. In its most recent report 
to Congress on February 11, GAO once again noted DHS's good progress 
toward getting off the list. Specifically, GAO noted that since its 
last report in 2013, DHS has ``fully addressed'' 9 of 30 risk areas, 
and has made significant progress toward addressing theremaining 21. 
Overall, GAO has stated that DHS is a ``model'' for how Federal 
agencies can work to address GAO's high risk designations. GAO also 
stated:
        ``DHS's top leadership, including the Secretary and Deputy 
        Secretary of Homeland Security (who assumed leadership of the 
        department after our 2013 update), have continued to 
        demonstrate exemplary commitment and support for addressing the 
        department's management challenges. For instance, the 
        department's Deputy Secretary and Under Secretary for 
        Management, and other senior management officials have 
        frequently met with us to discuss the department's plans and 
        progress, which helps ensure common understanding or the 
        remaining work needed to address our high-risk designation.''
    Concerning morale, one of the ways we are improving is to stop 
telling the workforce they suffer from low morale. We have moved on. We 
are no longer ``studying'' the issue of morale. We are doing something 
about it. The Deputy Secretary and I are on an aggressive, multi-
faceted campaign to improve morale within components of DHS. We are 
developing more transparency in hiring, training, promotion and 
mentoring opportunities. In cascading fashion, we are encouraging all 
leaders and managers within the Department to invest time and effort to 
improving morale. We are thanking and acknowledging people for their 
good work. In October of last year we restored the Secretary's Awards 
Program, which had been dormant since 2008, to recognize more than 300 
employees who have made outstanding achievements across DHS. I request 
that Congress continue to work with me to address DHS workforce issues, 
so the men and women all across the Department of Homeland Security 
remain upbeat, dedicated and patriotic.
    We have improved the Department's responsiveness to Congress. This, 
despite the challenge of--depending on how you count--92 committees and 
subcommittees of Congress who claim an oversight role over this 
Department. Members of Congress on both sides of the aisle have taken 
note.\1\
---------------------------------------------------------------------------
    \1\ Rep. Beto O'Rouke (D-TX): ``Mr. Secretary, I want to begin by 
thanking you for your accountability. Your responsiveness to our 
requests and our questions and your commitment to transparency--I think 
there's a long way still to go within the department, but in the last 
12 months, we've seen more transparency than we've seen in hears. And 
so I really do appreciate that.'' 
  Rep. Jason Chaffetz (R-UT): ``I can tell you, since you've taken 
office, the production and the response to Congress in terms of 
responding to our letters and inquiries is--the difference, I cannot 
tell you how much better it is. And I thank you and the people who work 
on this. I do appreciate [that].'' 
  Sen. Tom Coburn (R-OK): ``Jeh Johnson has proven to be a capable 
leader, a transparent partner with Congress, and committed to making 
tough decisions and improving the Department.''
---------------------------------------------------------------------------
                               conclusion
    I thank you for the opportunity to speak with all of you and for 
your continued support, I look forward to your questions.

    Senator Hoeven. Thank you, Mr. Secretary. Appreciate it.
    We will follow the early-bird rule, but I would like to 
first ask the subcommittee's indulgence to turn to Senator 
Murkowski, who has to leave, and allow her to proceed with her 
questions to start.

                              ICEBREAKERS

    Senator Murkowski. Thank you, Mr. Chairman, and other 
members of the subcommittee. I appreciate the indulgence. The 
administrator for the Environmental Protection Agency (EPA) is 
in the next room, and I'm supposed to start that hearing right 
now.
    So if I may ask just one quick question, and I will submit 
others for the record.
    This relates to our ability as a Nation to be prepared, to 
be resilient, in the Arctic. As you know, the United States 
assumed the chair of the Arctic Council on Friday. I was with 
Secretary Kerry. We were up in Iqaluit, Canada.
    There is a great expectation for us as a Nation to assume 
the roles, the responsibilities, the obligations as an Arctic 
Nation. But it's kind of tough to do that when you can't move 
when you need to, whether it is for a search and rescue 
operation, whether it is to help our maritime commerce moving 
through waters that are now more open. And it comes down to our 
icebreaking capacity as a Nation.
    As you know, we have the Polar Star. The Polar Star is our 
one full-strength icebreaker, and she is on assignment to 
Antarctica for the next 5 years. When she's done, she comes 
back, and, theoretically, we would have the opportunity to have 
her in the Arctic. But her useful life is between 6 to 8 years 
from now.
    We are woefully behind. China has more icebreakers than the 
United States. Russia has three and four times more than we 
have here in the United States.
    I understand that this is a question of funding priorities. 
I appreciate full well what the chairman of the full committee 
has noted in terms of cutter priorities for our Coast Guard and 
the importance of getting that ninth cutter going.
    And know, Mr. Chairman, that I am entirely with you there.
    But, Mr. Secretary, I need to figure out how we build this 
path forward for not only one icebreaker, but the six that have 
been recommended in the study that has been done. We know what 
we need. We don't need to spend more money on studies. We have 
$4 million in the request here for initial acquisition 
activities for a new polar icebreaker. It takes 10 years to 
build one.
    Funding is an issue. We all know that. But it is also 
ensuring that it is a priority. I noted in your comments as 
well as in your prepared comments, there is no mention of what 
we need to do in the Arctic, short of a reference to permafrost 
thawing.
    So I need to hear from you what you believe we might be 
able to do to step it up to assume those responsibilities that 
we have in the Arctic and, more specifically, to the need to 
how we might be able to expedite construction of a polar 
icebreaker.
    Secretary Johnson. Senator, I have in 16 months in office 
become very committed to our icebreaking mission, particularly 
in the Arctic.
    You are correct that there is $4 million for preacquisition 
activities. I believe that we need to get to a new icebreaker. 
I also believe that we need to carefully look at what can be 
done with the Polar Sea.
    I know the importance to commerce and to straight maritime 
security of an icebreaker, and not just the big ones you refer 
to, but the smaller fleet as well performs a valuable service 
in places like the Hudson River, for example, near where I grew 
up.
    So you are correct that the Polar Star is years and years 
old, and we need to do something about that. So I am interested 
in recapitalizing and rebuilding the entire Coast Guard fleet. 
But I do recognize the importance of having the right number of 
icebreakers for our Coast Guard.
    I note the fact that China and Russia have been able to 
fund a number of icebreakers. And I know the great value there 
is in having very large icebreakers to free up commerce and to 
basically save people and pull them out of the ice.
    Senator Murkowski. Well, know that I'm going to continue to 
press on it. If we can work with you and your team, obviously 
we are the Coast Guard, but I think this has to be across 
agencies, in terms of how we're going to place priority on 
this, so I look forward to working with you.
    I do have a couple other questions, Mr. Chairman, that I 
will submit for the record. But I thank you for your indulgence 
in giving me this opportunity.
    Senator Hoeven. Certainly.
    I would like to turn to Senator Tester. I believe you also 
have an engagement, and I will be more than happy to allow you 
to go next.
    Senator Tester. I apologize, Mr. Chairman.
    Senator Hoeven. No problem.
    Senator Tester. I also thank you.
    Secretary Johnson, just building off of what Senator 
Murkowski said, I think the key here is funding. I mean, I 
don't think you want to waste a bunch of time if the money 
never comes. So we have to step up to give you the kind of 
money you need to rebuild your infrastructure.
    Without Congress acting, without Congress doing the right 
thing--and hopefully, we will have a discussion about this, Mr. 
Chairman, when we have the full committee come together. 
Without us acting and doing the right thing, how can you spend 
a lot of time on something that is never going to happen unless 
we step up? So thank you.

                      BORDER PATROL PAY REFORM ACT

    Look, we passed up the pay reform bill, Senator McCain and 
I did, last Congress. It's a good bill. It would not have 
passed without your support, and we appreciate that.
    It increases manpower hours along the border, which I think 
we all think is more important, more predictable schedules for 
the employees and more predictable paychecks in that, and 
offers some recruitment advantages. It also saves about $100 
million a year. So it is the best of all worlds.
    In moving forward, I expect this legislation to be 
implemented pretty quickly in its entirety in a way that really 
doesn't financially harm the agents, because you need those 
folks on the borders.
    Can you give me an update on the implementation of the 
Border Patrol Pay Reform Act, as well as the timeline for full 
implementation?
    Secretary Johnson. Well, first of all, Senator, thank you 
for your sponsorship of that bill. It's a really, really good 
piece of legislation. It's a win-win for our Border Patrol and 
for long-term fiscal discipline. It's an excellent piece of 
legislation. I'm really glad you got it passed to replace the 
Administratively Uncontrollable Overtime (AUO) system, which 
had a lot of problems.
    The law requires implementation through the drafting of 
regulations. I have urged my people to do that as quickly as 
possible. I am told that we could be there as soon as late this 
summer.
    Senator Tester. For full implementation?
    Secretary Johnson. For at least initial implementation, 
sometime late this summer.
    I would like to see us move as quickly as possible, because 
we are talking about people's pocketbooks, and we are talking 
about people who work for me.
    Senator Tester. Yes.
    Secretary Johnson. And I understand the importance of 
overtime in people's daily lives, so I'm urging our people to 
get this done. I'm urging our rule-writers, our lawyers, to get 
this done as quickly as possible.
    I was, frankly, disappointed to hear that it is going to 
take as long as it is taking, and I know the importance of 
being able to fill the gap.
    Senator Tester. Are there impediments that we can help you 
knock down?
    Secretary Johnson. We may want to come to you for that. I 
understand there is an issue with how the law should be 
interpreted, the wording of a particular provision. So we may 
need to come to you for a little help there.
    But on my end, I'm pressing our people to get this done as 
quickly as possible.

                           FIREFIGHTER GRANTS

    Senator Tester. Okay. I appreciate your efforts.
    We have the beginnings of a historic drought out West. 
Everybody knows about California. Washington and Oregon are 
right behind. And I'm afraid to say that Montana is not far 
behind them.
    That means more fires. That means local firefighters need 
assistance, and they get that assistance through firefighter 
grants, SAFER grants, Assistance to Firefighters grants, and 
others.
    The administration calls for a reduction in these programs, 
in the fiscal year 2016 budget at least. What is the 
justification for that proposed cut? Was it done because you 
thought we would probably bump it back up? Because things don't 
look particularly well in the Western United States, so it's 
not just one State, as far as fire goes.
    Secretary Johnson. Well, first of all, if we got into a 
real problem, I'm sure there are ways to compensate through 
grantmaking properly for firefighter relief and other things.
    Senator, I do know that at the top line, we have requested 
$2.2 billion in grants for statewide and for Urban Area 
Security Initiative (UASI) money, which can go to all sorts of 
different things, including firefighters. I know that we are 
funding, in some cases, overtime for firefighters.
    When it comes to firefighters in rural areas, which I think 
is implicit in your question----
    Senator Tester. That's true.
    Secretary Johnson [continuing]. Let me take that for the 
record. I do want to understand better the reason for our 
current funding request.
    [The information follows:]

    The President's Budget requested $335 million for the fiscal year 
2016 AFG program and $335 million for fiscal year 2016 SAFER grants, 
which are the same amounts requested in fiscal year 2015. This was a 
decision made within the context of the overall DHS budget request in 
which many varying needs are weighed. The decision to request the same 
amount as in the prior fiscal year was made to maintain constant 
funding from one fiscal year to the next fiscal year.

    Senator Tester. Okay. Thank you. I have some of the 
questions I'll put in the record.
    But I just want to say, personally, Jeh, I really 
appreciate the job you have done since you've been here at 
Homeland Security. I appreciate your common-sense perspective 
on things, because it is a tough job, maybe the toughest job in 
the administration. I just thank you for the work you do, and I 
look forward to supporting your success.
    Secretary Johnson. Thank you.

                          FUNDING ALLOCATIONS

    Senator Hoeven. Thank you, Senator.
    Mr. Secretary, I guess I would like to start with the top 
line total in your budget. You requested, in discretionary 
funding, $41.426 billion. The House mark, the House 302(b) 
allocation, and I think you maybe already had your initial 
hearing with House appropriators? Is that correct?
    Secretary Johnson. Yes, I did.
    Senator Hoeven. So their mark is $39.32 billion. Did you 
discuss that difference with them?
    Now, it looks like we're close to reconciling on the budget 
between the House and the Senate, and then we will be setting 
up our 302(b)s, so we don't know what that 302(b) is going to 
be yet for the Senate. Our chairman and ranking member 
undoubtedly are already having that conversation. So don't know 
exactly where this 302(b) is going to come in. But for 
starters, you've already seen that the House is about $2 
billion below your number.
    So what was the discussion in terms of prioritization and 
the adjustments that you would make relative to that House 
number versus your budget request?
    Secretary Johnson. When I testified, it was late March, 
March 26, March 27. I think that the House budget number had 
just come out, maybe a few days before that. So we did not have 
an in-depth discussion, except to say that if we have to do 
this on the sequester level, it is going to be a real setback 
for the key Homeland Security missions that we have, and the 
things that immediately come to mind are border security and 
aviation security and funding the Secret Service, in addition 
to cybersecurity. Those are the four big items where we have 
new initiatives for Homeland Security that funding at the $41.2 
billion level gets us to.
    If we have to fund at the sequester level, that's a very 
different exercise. I've been working with my Chief Financial 
Officer to understand exactly how we would try to compensate 
for that. It's not easy.
    If we have to do it, we have to do it. But I'm urging 
Congress to give us some relief here, so we can deliver the 
services that I know you want us to deliver.
    Senator Hoeven. I'm asking that question on purpose, 
because you have both the chairman and the ranking member of 
the full Appropriations Committee here, so this is your chance 
to make your case before that 302(b) allocation is made. So 
that's your shot right there, because obviously we are going to 
have to set that number. In all likelihood, it may be different 
than the House number.
    So this is where I think you plead your case.
    But there is going to have to be some prioritization, in 
all likelihood, between the budget number and our number. But 
our number may very well be higher than the House number. So 
that is why I offer you that opportunity.
    Secretary Johnson. Well, I know Congress places huge value 
on national security, on funding our military, on funding 
national defense. In my judgment, equal to that in importance 
should be basic homeland security, the security of our borders, 
the security of our ports, the security of our airplanes, the 
security of the Internet.
    My Department, as I said earlier, interacts with the 
American public more than any other department of government. 
TSA alone does. So when we talk about the basic security of the 
American people, we are talking about homeland security, in my 
judgment, aviation security, maritime security, cybersecurity.
    After a number of years of really difficult budgeting, with 
less than desirable top lines because of the economy and 
because of where we were in our overall budget process, we are 
now at a place where I think we can really fund our vital 
homeland security missions with added surveillance and 
technology for the border.
    Everybody in Congress wants us to do a better job on border 
security. So we put forth a budget with added technology, added 
surveillance capability. I know Congress is concerned about 
aviation security. So we have put forth a budget that in our 
view adequately funds aviation security. And we need to do 
something about cybersecurity. This Congress is active right 
now in legislating cybersecurity. But we need to pay for that 
as well.
    So there are very important missions at the $41.2 billion 
level that we need to fund, that I know Congress wants us to 
pursue, and that will be very difficult to do if we have to 
live with sequestration.
    In my judgment, homeland security is a fundamental part of 
basic national security as well.
    Senator Hoeven. With that, I would normally turn to Senator 
Shaheen, but I understand that she would like to defer.
    Senator Mikulski, would you like to go next?
    Senator Mikulski. Thank you, Senator Shaheen. Yes, I do.
    Mr. Chairman, Ranking Member Shaheen, I just want to 
comment first about Baltimore. We've been through a rough time 
in Baltimore. Our protests were important to insist that 
justice be done for Mr. Freddie Gray, who died in police 
custody. But then there were a group of children, teens, 
tweens, that really did some acting out and severe damage.
    But we are calm now. Our city is calm. Children are back to 
school.
    And by the way, that awful day when the disruption 
occurred, 85,000 of our children went home peacefully, went to 
after-school activities, sports, faith-based, et cetera. So 
85,000 were okay.
    But let me tell you why this is important to this 
committee, which goes to the emergency preparedness grants and 
to the continuity of government.
    I just want to say to the subcommittee, first of all, 
Baltimore is calm. We are not a city that lacks leadership or 
lacks commitment or lacks compassion. So we will get through 
this. Baltimore emergency management, this was funded 
significantly through your office, as was Governor Hogan's 
Maryland emergency management, which was also activated.
    To my colleagues, what this does, at a time like this, is 
ensure the continuity of government and the continuity of 
services. So not only do our schools need to be open but people 
who might need kidney dialysis need to be able to get there and 
know where to go and how to do it.
    I saw this operation full-scale, full-bore moving forward.
    Today, I received a call from the CVS drugstore corporation 
that had been burned out. And I thought, are they calling me to 
tell me they are pulling out? No. They called me on how they 
could deliver prescription drugs to needy people in 
neighborhoods that had been disrupted.
    Because I could connect them to Baltimore emergency 
services, connected to the appropriate police district 
commanders, to protect the drug stores that were open, as of 2 
o'clock today, we had a whole method, thanks to the 
interoperability of their medical and pharmaceutical records, 
and working with the Federal Emergency Management Agency (FEMA) 
backed up by the Mississippi Emergency Management Agency 
(MEMA), we can meet the needs of the senior citizen that needs 
insulin or the child that needs antibiotics.
    So this is really what we pay for. Yes, it is guarding our 
borders, yes guarding our Internet, all the excellent things 
you do every day. Of course, we can't have a Port of Baltimore 
without the Coast Guard.
    But I just wanted to share that, because we don't always 
think about the bread-and-butter issues and what must go on. So 
of course, I salute the men and women in Baltimore who are 
responding, and all those who have come to our assistance. But 
this is the kind of stuff we pay for.
    And thanks to the fact that they train, that it is in 
place, and they are available, we can meet the needs of our 
citizens.
    So I just wanted to say that.

                           H-2B VISA PROGRAM

    Shifting gears, though, I would like to raise the issue 
about something that goes very important to jobs in my State, 
which is the famous H-2B visa program.
    First of all, Mr. Secretary, I want to thank you and 
Secretary Perez for issuing the regulations that you said you 
would. By and large, I like them. I can have some flashing 
lights.
    But I have a real problem and so does my business community 
where they have not been able, because of the H-2B cap, be able 
to get the visas they need for this year.
    Are you aware that's a problem?
    Secretary Johnson. Yes, I am.
    Senator Mikulski. I have a suggestion on how to meet that 
problem without legislative change. I'm asking whether you 
would do an audit on the number of nonimmigrant H-2B visas that 
have been requested, and then also to know where they are not 
being used and, therefore, the ability to be used by others who 
could use them.
    What I mean is, in my seafood industry, a company might ask 
for 100 visas. They might've been doing this for 10 years. 
Crabs are down. They only need 50. You would have 50 to use. 
Well, this year, we need all 100.
    So can you offer your suggestions on how to deal with this 
H-2B, because I certainly know we coastal Senators are facing 
real problems. The landscape industry is facing real problems.
    Quite frankly, they create American jobs. In the landscape 
industry, there are 13 people who are of Mexican heritage who 
have come every year for 10 years. They are ready to go to 
work, and they keep this whole landscape business with American 
jobs going. Thirteen helps create another 40.
    The seafood industry, the crab pickers keep a lot of our 
seafood industry going, and so do restaurants.
    Secretary Johnson. As you know, Senator, the cap is set by 
law. If there is a way legally to do as you suggest, I would 
like to work with your staff on that.
    Fortunately, we have a way forward for next year. We got 
the new reg out. It's a joint reg issued by DHS and Labor for 
the future that satisfies the litigation.
    And you are correct. We reached the cap when we issued H-2B 
visas during that window period of time.
    If there's a way to look at it, to do some kind of audit, I 
would be very interested in hearing ideas on that. I'd be happy 
to have my folks engage with yours on that.
    Senator Mikulski. Well, thank you.
    Mr. Chairman, Senator Shaheen, you have been very generous.
    I have other questions related to cybersecurity and 
unaccompanied children. Again, thank you for your steadfast 
work on that. And I will give you a letter on H-2B. I wouldn't 
be me without having some suggestions to give you.
    Thank you, Mr. Chairman.
    Senator Hoeven. Senator Cochran.

                    NATIONAL FLOOD INSURANCE PROGRAM

    Senator Cochran. Mr. Chairman, thank you.
    I was looking at the briefing book before we came over here 
to see whether or not there were issues other than the one I 
raised in my first round of questioning. I was reminded the 
flood insurance program is real important and was gladly 
applauded by those in coastal and low-lying areas who built 
houses where they probably, in some cases, shouldn't have.
    But in many cases, Mother Nature is just unpredictable, and 
nobody can predict exactly where the next storm is going to be 
and how deep the water is going to get.
    So I am asking whether or not the framework affordability 
for flood insurance has been completed yet by the Department, 
and whether or not we can expect to have something done, let's 
say, this fall, as required by the Homeowner Flood Insurance 
Affordability Act.
    Can you give us an update? If not from your notes here, for 
the record? Give us some idea of what your reaction to this 
framework is?
    Secretary Johnson. Two things, Senator.
    One, you are correct that there was legislation passed by 
Congress last year and the year before to give homeowners some 
relief on flood insurance. Overall, I am interested in two 
things, and I know Administrator Fugate agrees, affordability 
and solvency. We want to make sure that we have a solvent 
National Flood Insurance Program. We want to make sure that we 
have one that is affordable to those who need the insurance 
longer term.
    In this year's budget submission, we have a request for new 
flood mapping to make sure that we get this right, to update 
the districts, update the areas that are high-risk. And again, 
I think that that should be done with the purpose of a solvent 
National Flood Insurance Program (NFIP) and to make sure that 
it is an affordable one for people in high-risk areas. There's 
no point in having flood insurance if nobody can afford it.
    So this continues to be a major item of mine. I hear about 
it a lot from Members of Congress, from individual homeowners. 
We have litigation in the Northeast right now that I'm very 
focused on.
    So, Senator, I want you to know on behalf of your 
constituents in Mississippi and others in high-risk areas, this 
is a top priority of mine to make sure that we have a solvent 
and affordable flood insurance program.
    Senator Hoeven. Senator Shaheen.

                         HURRICANE SANDY CLAIMS

    Senator Shaheen. Thank you, Mr. Chairman.
    Since you mentioned the ongoing Hurricane Sandy claims, I 
understand that there may be a breakthrough in the effort to 
settle some of those claims. Do you want to take this 
opportunity to comment on that?
    Secretary Johnson. Senator, Administrator Fugate and I are 
very interested and determined to do the right thing for those 
who were the victims of Hurricane Sandy. So we've been working 
overtime to try to find a settlement to the litigation in New 
York, and I'm pretty confident that we will have a resolution 
to that is, which a good result for the homeowners, for the 
people that we are pledged to serve. I think we're pretty close 
to a solution.

                 STATE HOMELAND SECURITY GRANT PROGRAM

    Senator Shaheen. That's very encouraging. When 
Administrator Fugate came before this subcommittee, we had the 
opportunity to question him on what had happened with the 
Hurricane Sandy claims. I think it's fair to say that he 
acknowledged that people had not been treated in the way the 
agency would've liked.
    I think many of us felt that FEMA did too little too late. 
But it's very positive to hear that you think there's a 
positive outcome here and a settlement pending that will 
benefit the homeowners and allow them to receive their claims 
and to get moving with their lives. So I'm pleased to hear 
that.
    Mr. Secretary, I would like to be a little parochial for a 
minute and bring to your attention a problem that Grafton 
County, which is in the northern part of New Hampshire, is 
having with the State Homeland Security Grant Program. It has 
been delayed. It's now ready to move forward, if we can get 
your help. I hope that you will be able to help us cut through 
the red tape and get this important public safety 
communications project done. Is that something that you would 
be willing to help us pursue?
    Secretary Johnson. I believe this is the matter that you 
have raised with me before?
    Senator Shaheen. That is correct.
    Secretary Johnson. And as I said then, I would like to find 
a way to resolve the issue. I do know that there is a large 
amount of grant money from FEMA that is still at the State 
level in New Hampshire. I suspect that they would tell you that 
it has all been spent already.
    But I would like to find a way to resolve the issue. The 
issue is spending the money within the 2 years. And going 
forward, I changed that policy to make it a 3-year expiration 
period, because I was hearing from a lot of people that 2 years 
very often is not enough time.
    So I've had this conversation with FEMA, and I will 
continue to do that.

                                 HIRING

    Senator Shaheen. Well, thank you. I appreciate your 
attention to this issue because it does mean a lot, 
particularly to first responders and folks up in very remote 
towns in the State of New Hampshire.
    I want to go back to the budget request and ask, as you are 
thinking about 2016 and where we may wind up in terms of the 
funding levels, because of the delayed enactment of the 2015 
appropriations bill, is there a possibility to ratchet back to 
some degree some of the new hiring requests because the delay 
in funding has meant that the hiring requests are going to be 
delayed and might bump into 2016? Is that a place where there 
may be an opportunity to see some savings?
    Secretary Johnson. I'm not sure I understand your question. 
Because we had the delay in funding for fiscal year 2015, we 
are hiring later in the year?
    Senator Shaheen. Right. I'm trying to understand how that 
is working and whether that is a place where there might be an 
opportunity to recoup some savings.
    Secretary Johnson. Well, I would have to look at it at a 
more specific level; I guess component by component, work force 
by work force. That's an interesting question. I hadn't thought 
of that, so I am not in a position to answer intelligently on 
it, but it's something we may have to do, if the sequestration 
caps are not lifted.
    Senator Shaheen. And let me be clear, I think we should 
lift the sequestration caps. I'm committed to doing that on 
both the defense and domestic side of the budget. I don't think 
it makes sense for us to talk about lifting caps on defense if 
we are not going to also lift caps on the domestic side of the 
budget. So I am fully in support of that, but I would just 
raise that and ask you to take that back and see if there's an 
opportunity there.
    Secretary Johnson. Okay. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Hoeven. Senator Cassidy.

                 FEDERAL FLOOD RISK MAAGEMENT STANDARD

    Senator Cassidy. Good afternoon.
    A couple things. I'm looking at the Federal Flood Risk 
Management Standard. And this is Executive Order 13690 that 
will replace the current 100-year base elevation for flood 
insurance.
    I'm from Louisiana, so obviously I guess we're a little 
interested in flood insurance.
    There are three options for the floodplain, one of which is 
to build to the 500-year elevation approach. Now, I almost 
start laughing when I read that. We have no idea what the flood 
will be in 500 years, because it depends upon assumptions, 
which are imponderables.
    I just say that because in 1970, they were predicting a new 
Ice Age. Now we speak of global warming. I'm not casting doubt 
on the latter, I'm just pointing out that the former was quite 
untrue.
    So I'm just curious, how are we coming up with a dagum--if 
you're going to build on the gulf coast, you have to build to a 
500-year floodplain. That just like defies logic.
    Since that will impact the economic development of my 
coastline, what thoughts do you have, because obviously a lot 
of families and their jobs and their livelihood depend upon 
having common sense approaches to this?
    Secretary Johnson. Senator, I would have to reread the 
executive order in full. On the face of what you say, a 500-
year floodplain, I'm not sure I understand that either. But I 
would have to refresh my memory on the wording of it and to 
understand it better and what the motivation is for a 500-year 
plan.
    Senator Cassidy. Then we will give you a question for the 
record.
    Secretary Johnson. Sure.

                      CONTRACTING AND EFFICIENCIES

    Senator Cassidy. They have other options, one of which is 
100-year floodplain plus 2 to 3 feet more, which sounds like 
they are trying to get to a 500-year floodplain.
    And, of course, we are afraid that that will chill economic 
development, because the Federal Government to announce this is 
to bring with it the threat of all kinds of sanctions if you 
don't comply sort of thing.
    Secondly, one thing I'm interested in, I have a lot of 
maritime industry in my State. To what degree could we 
outsource some responsibilities of say the Coast Guard and save 
money? I point that out because they replace a buoy, I am 
told--I've learned this through what I have been told, not what 
I know--that it costs about $2,000 an hour to replace a buoy. 
They have a tender that goes out and lifts it, et cetera, when 
you could contract that out for far less, reserving the Coast 
Guard men and women for interdiction and rescue, et cetera.
    Also, Senator Murkowski I think initially talked about an 
icebreaker. We could have an icebreaker with non-Coast Guard 
folks manning, and I'm gathering although the Coast Guard likes 
to have a multi-kind, you know, can do different things at 
once, when you're in the middle of an ice floe, I can't imagine 
that you're doing very much drug interdiction.
    So I think they could save a lot of money and again 
redirect resources. Any thoughts about all that?
    Secretary Johnson. Well, let me say this, I am interested 
in the most cost-efficient and effective outcome for the 
taxpayer possible. And in many scenarios, that can include 
outsourcing, contracting, so long as it is not regarded as an 
essential government function. And we do do that in a number of 
different contexts.
    So if there is a case to be made by my people or to my 
people for outsourcing a particular function, I'm interested in 
hearing that, sir.

                             LEASING BOATS

    Senator Cassidy. Okay. The other thing that occurs to me, 
so much in industry leases boats, and we seem to want to pay as 
we go, even though it's hard to pay as we go right now. I 
didn't know whether that which private industry has found quite 
profitable, which is to lease, would be something that we could 
apply to, for example, the Coast Guard, allowing the builder of 
the boat and the one which is leasing to the government to be 
responsible for upkeep, et cetera.
    So I think Don Young had some hearings on this a few years 
ago. I will track that down and send it over to you as a 
question for the record.
    Secretary Johnson. Yes. I do know that the Coast Guard in 
particular does lease. It leases aircraft from time to time. 
We're doing that right now.
    Senator Cassidy. So we have precedent.
    Secretary Johnson. Where there is a case to be made for 
leasing, I think it can and should be done.
    Senator Cassidy. Okay.
    I yield back. Thank you.
    Senator Hoeven. Senator Baldwin.

                              ICE BREAKERS

    Senator Baldwin. Thank you, Mr. Chairman.
    I want to be the third Senator to talk about icebreakers 
today. We had an Alaska Senator, a gulf coast Senator, and now 
a Great Lakes Senator. Wisconsin is on both Lake Superior and 
Lake Michigan.
    Obviously, the icebreaking capacity is critical to our 
maritime security but also to our economy.
    I was struck reading a report by the Lake Carriers 
Association about the cost of the very severe winter that we 
had in the 2013-2014 season. The cost to the economy due to 
limited icebreaking capacity on the Great Lakes, $700 million 
and nearly 4,000 jobs. That is a huge impact to the Great Lakes 
economy.
    I note that, in contrast to the acquisition cost of a new 
heavy icebreaker, the U.S. Coast Guard has only one in the 
Great Lakes of around $225 million to $275 million, so still a 
big price tag but comparatively speaking with the economic 
impact in a region for just one severe winter. And we have had 
another very significant and severe winter since that time.
    What I just want to ask you is are you willing to work with 
me and this entire subcommittee to ensure that the Coast Guard 
takes a fresh look at the best way to carry out its icebreaking 
mission on the Great Lakes, including a new evaluation using 
updated data reflecting the last two harsh winters we have had 
of a potential acquisition of a second heavy icebreaker for the 
Great Lakes?
    Secretary Johnson. Basically, yes. I know the value of 
icebreakers, and not just in the Arctic or Antarctic. There was 
a terrific article, I don't know if you saw it, in the New York 
Times about a month ago on the value of icebreakers. The 
specific story was about the Hudson River and the value in a 
number of respects that icebreakers have in colder weather 
regions of the country, which most definitely includes the 
Great Lakes.
    So I am a convert to the importance of icebreakers. So if 
we are not assessing the need for them properly, then I want to 
be sure that we do do that.

                 ANTIDUMPING AND COUNTERVAILING DUTIES

    Senator Baldwin. Well, I appreciate that willingness and 
will work with you. I didn't mean to neglect. I wanted to 
appreciate the fact that there is a commitment to upgrade two 
of the medium-sized icebreakers that operate on the Great 
Lakes. But the capacity for a heavy icebreaker is a real 
critical issue.
    Second, I wanted to turn to U.S. Customs and Border 
Protection. They are charged with enforcing our trade laws. 
That includes antidumping and countervailing duties, which are 
incredibly important tools to level the playing field for U.S. 
manufacturers.
    I remain concerned about our ability to identify the 
products coming into the United States that are subject to 
these duties. For example, antidumping and countervailing 
duties are currently in place for several types of paper 
products from China, including lightweight thermal paper.
    Still, we know that importers evade the duties, the duty 
orders, by misclassifying, transshipping, and relabeling 
products to keep their costs below fair market value. Now I 
understand that steps have been taken to identify steel 
products that are subject to duty orders at ports of entry, 
including a CBP library of imported steel.
    What I want to ask, coming from the number one paper 
producing State in the country, is why hasn't a similar 
imported paper product library been started at CBP? And does 
CBP need additional resources in obtaining the products that 
are subject to the antidumping or countervailing duty orders in 
order to build such a library?
    Secretary Johnson. My short and honest answer is I don't 
know, but I will find out for you.
    [The information follows:]

    CBP Laboratories and Scientific Services Directorate (LSSD) can 
determine whether a product falls within the scope for the majority of 
current Antidumping/Countervailing Duty (AD/CVD) orders. Also, CBP LSSD 
has several viable country of origin (COO) programs for products 
subject to AD/CVD laws and duties. Each commodity and accompanying AD/
CVD scope present their own unique challenges. Thus, a prospective 
product requires a particular scientific analysis and methodology that 
must be researched, statistically evaluated, and validated to meet 
several standards (i.e., quality requirements, Daubert standards, and 
other court precedents, etc.) in order for the product to be usable for 
customs purposes. The COO programs are resource- and personnel-
intensive since they can take several years to develop and must be 
updated continuously.
    For COO determinations, authenticated, traceable reference samples 
must be obtained from the multiple regions (or manufacturers) within 
the country subject to the AD/CVD order and from multiple regions (or 
manufacturers) in countries where transshipment is suspected in order 
to accurately (or within a high level of confidence) determine the 
actual origin of the commodity. As a result, there are many AD/CVD 
commodities that are either too homogenous in their construction/
fabrication (i.e., steel and most steel products, solar cells, etc.) or 
are too variable from product to product where a notable difference or 
trend cannot be identified/discerned for origin determinations to 
satisfy the AD/CVD orders.
    As for the AD/CVD order on lightweight thermal paper, CBP LSSD has 
had discussions with representatives of the U.S. paper industry 
regarding several scientific technologies and methodologies that could 
be used in determining a specific country or manufacturer of origin. 
However, the methodology still needs to be evaluated and validated to 
satisfy the many quality and court-driven standards before it can be 
utilized for enforcement purposes. Also, CBP has not been able to 
obtain the necessary authenticated reference samples from the 
manufacturers within the countries subject to this order because of the 
manufacturer's unresponsiveness to requests. These reference standards 
are essential in making any country of origin or manufacturer of origin 
determination possible.
    CBP LSSD would require additional personnel and dedicated yearly 
resources (i.e., funding for authenticated reference standards and 
equipment) to address the technological challenges and requirements of 
each new AD/CVD order and to expand/enhance current capabilities for 
existing orders. Any AD/CVD libraries of products and accompanying 
databases obtained and developed by CBP LSSD for enforcement purposes 
are considered Law Enforcement Sensitive since the release of any of 
the data contained in this list would most likely lead to a means of 
evading AD/CVD orders.

    Senator Baldwin. Well, very good. We will look forward to 
your follow-up. And if additional attention is needed, we will, 
certainly, look forward to working with you on that.
    Secretary Johnson. Let me say also, Senator, that you 
mentioned the Chinese. I was in Beijing 3 weeks ago. I met with 
my Customs counterpart in Beijing. I think that we had a good 
meeting in terms of a heightened agreement to work together on 
customs issues. So I think we are in a better place there in 
terms of trade with that country. We still some areas of 
disagreement, but I think we are in a better place there.
    But I'm interested in the answer to your question. I will 
look into it and get back to you on the record on that.

                     BORDER SECURITY: SURVEILLANCE

    Senator Hoeven. Mr. Secretary, as Senator Shaheen said just 
a minute ago, she and I were down on the southern border 
recently for about 3 or 4 days and looked at everything from 
airports and seaports to the land border.
    Clearly, we need to get the right mix of people and 
technology on the border to truly secure the border. I also 
come from the State of North Dakota where we are on the 
northern border. Out of Grand Forks, they actually have 
responsibility for border surveillance all the way from the 
Great Lakes well out into Montana.
    So with the idea that we have to use people and technology 
in the right mix to be as effective as possible on border 
security, including our coastline as well as our land borders, 
and that we have a limitation of resources and we have to be as 
cost-effective as we can, how can we use technology better? How 
do we get the right mix? And specifically what about doing more 
with unmanned aerial systems (UAS), RPAs, remotely piloted 
aircraft, to really leverage our security efforts on the 
border?
    Secretary Johnson. I agree with the spirit of your 
question, Senator. We have 21,000 Border Patrol agents. The 
northern border, in particular, has lost a remote area, and, 
therefore, I believe that a key to having increased situational 
awareness is aerial surveillance, not necessarily unmanned.
    Aerostats, for example, although aerostats are very costly 
to maintain, we have been working with the Department of 
Defense (DOD) to see if we could take more of theirs. I believe 
that aerostats are a wave of the future. Our Border Patrol 
experts, when I ask them directly what they need, they tell me 
aerostats, but they also tell me about increased surveillance, 
increased mobile surveillance.
    I think the balance between person power and technology is 
shifting and it probably should shift, given that we have 
better technology. I want to see us expand situational 
awareness across the northern border and the southern border.
    Just within a very short period of time, with each 
subsequent budget request, I've seen us move in the right 
direction, and I would like to continue to do that as part of 
an overall risk-based strategy.
    Senator Hoeven. And we observed the effectiveness of the 
aerostat, and that is something we have seen overseas as well. 
The same thing holds true with UAS. I think two of the systems 
most in demand in the war on terror overseas are the Predator 
and Global Hawk. So can't we do more on the border with both of 
those systems as well?
    Secretary Johnson. Well, I had this conversation yesterday 
with the Deputy Commissioner of CBP. CBP's view is that, in 
terms of unmanned aerial systems, we have at the moment what we 
need. What we do need are the people to man these things, to 
make them work. We are a bit short there.
    I also know that in our budget request, we do make requests 
for added surveillance capability, in other respects. Overall, 
I agree with what you say, that more technology, more 
surveillance on the border, is the wave of the future and it is 
needed.
    Senator Hoeven. Where I'm going with this right mix of 
people and technology is also then going into metrics, managing 
the effectiveness of our border security, our coastal security.
    That is going to be a little bit longer question than my 
time remaining, so at this point I'm going to have to step out. 
I'm going to ask Senator Cassidy to chair the meeting for a few 
minutes. I will be back.
    Senator Shaheen. Let me just follow up on Senator Hoeven's 
question, because I think one of the things we were both very 
impressed with when we were down at the border were the 
aerostats and the use of different surveillance systems to 
improve the ability of our CBP agents to do their jobs.
    I know that there is some funding in the 2016 request, 
about $18 million for more mobile surveillance systems, $11 
million for intrusion detection systems at land ports of entry, 
and more than $85 million to begin capitalizing nonintrusive 
inspection equipment at the ports. If you were going to 
prioritize this, and I know you don't like to do that, but 
where would you prioritize? What do you think is most important 
as you are looking at surveillance systems and the need for 
improved technology? Is it at the ports of entry, or is it for 
those mobile surveillance systems that can be used along the 
border?
    Secretary Johnson. If I had to prioritize, I would say that 
the mobile surveillance systems between ports of entry are 
crucial to gaining additional situational awareness and 
additional border security, if I had to prioritize.
    But I do believe that our priorities are reflected in our 
current budget submission.

                           IMMIGRATION COURTS

    Senator Shaheen. Sure. I do appreciate that.
    And again, I thought what is happening is very impressive, 
in terms of the impact it was having on those people who are 
working the border.
    One of the other things that we heard virtually everywhere 
we went in Texas, at immigration courts, the processing center, 
the border, and the ports of entry--was a plea that if we were 
going to increase one area of the budget in terms of dealing 
with illegal immigration at the border, we need to look at 
increasing the whole system, because to plus-up in one area and 
create a bottleneck in another area doesn't solve the challenge 
that we are facing.
    And I observed that one of the places where it appeared 
that there is a bottleneck is with the immigration courts. Now 
I know that in the 2015 appropriation, there was some increased 
funding to help support additional immigration judges. But have 
you talked with folks in the Justice Department about efforts 
to move along that process in a way that might help as we are 
thinking about how to increase the number of immigration judges 
and remove that bottleneck?
    Secretary Johnson. Yes, we have that conversation all the 
time. And to your point about supporting the entire system, our 
fiscal year 2016 request has a request for additional 
attorneys, ICE attorneys who represent the government in 
immigration courts. My recollection is that there was a request 
for additional judges in the supplemental last summer.
    Senator Shaheen. Maybe that's where it was.
    Secretary Johnson. And I believe there is a request, but 
this is the Department of Justice's (DOJ) request, in fiscal 
year 2016 for additional judges, but I don't recall the number.
    But we are meant to be companions in this, so I made an 
additional request for attorneys and presumably DOJ is making 
an additional request for judges.
    You are correct that there is a huge backlog in these 
cases. We are prioritizing the cases to deal with the more 
recent influx of illegal migration. So I believe as an 
administration, we have asked for added resources in the 
immigration courts.
    Senator Shaheen. Is that a place where it would be helpful 
for Congress to weigh in with looking at the Justice 
Department's request or asking these questions?
    Secretary Johnson. I would say, yes. I don't recall their 
request offhand, but I do believe it is worthwhile to assess, 
from your perspective, whether the numbers that we sought from 
each of us works and works in tandem.
    Senator Shaheen. Thank you.
    Let me just say, because my time is almost up on this 
round, I just want to be counted in the record as weighing in 
also in support of the importance of icebreakers. Living in a 
coldwater State where we have had sometimes difficulty getting 
oil tankers in to provide the number two heating oil that so 
many people in New Hampshire use to heat their homes, it is a 
very big issue for us.
    I just happened to be during this winter at the Coast Guard 
in New Hampshire, and the day before they had had an injury--I 
don't know if that's the right term to use in talking about 
what happens to a boat--but an icebreaker in Boston Harbor, 
because of the conditions.
    They were repairing it, obviously, but it's an ongoing 
problem. And I appreciate your commitment to try and address 
that.
    Secretary Johnson. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Cassidy. [Presiding.] Well, I'm from Louisiana but 
my State makes icebreakers, so that makes it pretty unanimous. 
We are interested in icebreakers.
    Secretary Johnson. For the record, DHS has a lot of things 
going on in your State, in addition to the Coast Guard.

              HOMEOWNER FLOOD INSURANCE AFFORDABILITY ACT

    Senator Cassidy. Thank you. The next thing that you have 
going on in my State is flood insurance again.
    In the Homeowner Flood Insurance Affordability Act last 
year, there was stipulated $25 surcharge on primary residences, 
but a $250 surcharge for nonprimary. My legislative director, 
so I have a copy of it, gets a notice that he has a $250 
surcharge on his primary residence. Since when I was on the 
House side, we have worked on this, of course, he understands 
it is supposed to be a $25 surcharge.
    It's interesting. It doesn't really designate. It just says 
you have to put up $250. I can give you a copy, once I ink out 
he and his wife's names. It doesn't say this is because--it's 
from a write-your-own organization. It doesn't say that's $250, 
not $25, because it is a secondary residence.
    So we get a letter from I guess NFIP to homeowners, and he 
did not receive this, but I gather this goes out to 
policyholders, which indicates they are required to give a $25 
surcharge for primary residences, $250 for nonresidential and 
nonprimary residences. To establish that your home is your 
primary residence--I gather the default is that it is not your 
primary residence. This is my understanding.
    The default is that you pay the $250 not the $25, and to 
prove that it is your primary residence, you have to give a 
driver's license, automobile registration, several other 
things.
    So several questions. Again, my legislative director that 
helped write the Homeowner Flood Insurance Affordability Act--
--
    Secretary Johnson. This is the same person who got the 
letter?
    Senator Cassidy. Yes. He knew enough to bring it to my 
attention.
    So I guess a couple questions. Do you have a sense of what 
that NFIP or FEMA is doing to inform primary homeowners that 
their surcharge is $25, not $250? And how can we make sure that 
the write-your-own companies are indicating that the $250 might 
be too much, if this is your primary residence?
    And last, it seems like this is a fairly short window of 30 
days. If somebody from Louisiana moved to New Hampshire, and 2 
weeks there gets this letter and they have to have their New 
Hampshire driver's license, their registration, voter 
registration, et cetera, it seems like a tight timeframe.
    So just thoughts about all that and what we can do going 
forward?
    Secretary Johnson. Well, I'm interested in receiving that 
letter. If you want to block out the name, that's fine. If you 
don't, we will treat it with the appropriate level of privacy 
and confidentiality. And I will ask all the right questions and 
get back to you on that, sir, both you and your legislative 
director, about the letter.
    Senator Cassidy. Yes. And you know, it just so happens, in 
the whole scheme of things, like of all the gin joints in all 
the world, you walk into mine, if my legislative director that 
helped write the legislation got such a letter, presumably 
there are millions more also receiving such letters. So it 
would also be nice to have a sense of the scope of the issue, 
because again, there's no indication that it should have been 
only $25.
    Senator Johnson. Understood.
    Senator Cassidy. I yield back.
    Senator Hoeven. [Presiding.] Senator Baldwin.
    Senator Baldwin. Thank you.
    Just closing off the last topic we were discussing, you are 
reporting that you had recently met with a Chinese official, 
their equivalent of Customs. I would be really interested in 
follow-up conversations about your sources of encouragement.
    I guess particularly with what I've experienced in 
discussions with the paper industry in Wisconsin, the various 
ways of misclassifying and circumventing the orders that have 
been imposed here are of great concern. If you have made some 
headway, we would love to hear the report and be a part of 
monitoring any progress that you see.
    But I want to shift to an issue that we're watching very 
closely also in Wisconsin, and that is the credible increase in 
the number and length of oil trains that traverse our State.
    Secretary Johnson. I'm sorry, the number and length of 
what? I'm sorry?

                              RAIL SAFETY

    Senator Baldwin. Oil trains bringing Bakken oil. In fact, 
Chairman Hoeven got to hear me last week when we had in this 
very subcommittee Administrator Fugate here to talk about 
FEMA's efforts to build capacity for responding to catastrophic 
disasters.
    Just a few years ago, an oil train in Wisconsin was a 
pretty rare sight. Now we have many such trains, some with more 
than 110 tank cars in tow traversing our State, sometimes down 
the Mississippi River, sometimes across the State.
    Citizens and local governments are concerned, especially as 
we have seen a significant number of derailments, explosions in 
the region, as well as just across the United States and even 
in Canada.
    This week, a committee of the Milwaukee City Council--in 
fact, I think it's later today--is taking a closer look at that 
issue, as many of these trains come through downtown Milwaukee, 
but also traverse some of the more rural areas of the State.
    I guess I want to ask questions more about preparedness and 
prevention of you, Secretary Johnson. Let me start with, we 
have at least 10 oil trains going through downtown Milwaukee a 
week. Your thinking and your Department's thinking about the 
impact on the local community? The preparedness level right now 
of State and local first responders, if there were to be an 
accident? And then secondly, I think especially as we prepare 
to move to the appropriations bill, what flexibility does the 
Department of Homeland Security have to adjust its current 
grant programs to meet this growing threat?
    Secretary Johnson. Well, I do know, Senator, that this 
mission is a shared mission with the Department of 
Transportation (DOT) and with the EPA. And certainly, we do 
have a role with regard to the potential hazard of a rail 
accident involving oil tankers, particularly in urban areas 
like Milwaukee. And I suspect that there is some flexibility in 
our grant-making. It probably also depends upon the grant 
application that is submitted by an urban area or by a State.
    And if there are changing circumstances, like increased 
rail traffic through an urban area, that ought to be something 
that is factored into whatever risk-making is done to evaluate 
the level of a grant. So if the increased rail traffic is a new 
phenomenon, we ought to be sure that that is reflected in 
whatever grant-making goes to address this particular hazard.
    But I also know that DOT and EPA have a lot of the role in 
this area.
    Senator Baldwin. They certainly do. I guess I would ask, 
again, if you would work with us, bring to our attention any 
limitations or lack of flexibility, because I know a lot of the 
preparedness grants, mitigation grants, et cetera, are focused 
on terrorism. But this change in circumstances in our State is 
one that has caused great concern, alarm. And we want to build 
capacity, capability in case there ever is an emergency. Of 
course, we hope there never is.

                        BORDER SECURITY: METRICS

    Senator Hoeven. Thank you, Senator.
    Mr. Secretary, I want to go back to the point we were 
talking about earlier, and that is getting the right mix of 
people on technology on the border to do the best job possible, 
both in terms of security, but also in terms of cost-
effectiveness.
    We started out talking about limited resources. So how can 
we make sure we are getting that right mix, number one? And 
second, how do we measure the results, metrics? So how are you 
making sure that we know who is coming, who is trying to come 
across the border? And are we apprehending them? How many are 
we missing?
    But it goes beyond that. How do we also make sure that we 
have the entry-exit system at all international airports and 
seaports? How do we make sure that we are measuring visa 
overstays, so we are able to undertake enforcement actions 
there? And in the workplace, how are we making sure that our 
employers are using E-Verify, through CIS, and that we are 
measuring that, as well as managing it?
    So they go together, right? The use of people and 
technology to provide security on the border and on the coast, 
but then all these other technologies go into not only ensuring 
that security, but the metrics to know how well we are doing at 
getting the job done?
    Secretary Johnson. Thank you for that, because I actually 
omitted metrics from my last answer to your question.
    I think that having an agreed-upon, settled standard of 
border security metrics is a good idea to measure the 
effectiveness of how we are doing. I have undertaken with my 
staff to consult outsiders about a good set of border metrics, 
and we are moving in that direction now.
    It is something I would like to achieve while I'm in 
office, so that the public and Congress understand how we are 
measuring our effectiveness, and what goes into that 
calculation.
    I think that your second question answers your first. In 
other words, how do you ensure that you have the right mix of 
people and technology? One way to do that is by measuring, in a 
very transparent, public way, what our standards for 
improvement and for failure are.
    So we have in the works now in my Department a set of 
metrics. Probably one of the few things I liked about a bill 
offered on the House side, the Secure Our Borders First bill, 
was that there was an attempt there to come up with border 
metrics. And there are a lot of other things about the bill 
that I didn't like, but I thought it was a pretty good attempt.
    So we took that, and I've asked some experts to see if we 
can develop something here, because I think it is worthwhile.
    On visa overstays, I've seen a report, and I had some 
questions about its reliability. So I sent our people back to 
ensure that the projections and estimates there are right. Visa 
overstays is a hard measure. So before I am ready to share it 
with the Congress and the public, I want to make sure we get it 
right.
    I know it's overdue, that there's a visa overstay report 
that is overdue. The draft that I have seen, I have some real 
concerns about. So that, too, is a work in progress.

                             BIOMETRIC EXIT

    Senator Hoeven. How about biometric exit at airports and 
seaports?
    Secretary Johnson. Biometric exit, as I'm sure you know, is 
a longstanding goal of ours. We do consider it the gold 
standard. It is something we are working toward.
    We've been at this for quite some time. It is hugely 
expensive, as you know. I know that you know we have biometric 
entry now in a number of respects, a number of different 
places.
    Biometric exits at all of our land, sea and air ports is a 
huge and costly undertaking, but it will improve security. It 
will improve our ability to measure visa overstays, without a 
doubt.

                                E-VERIFY

    Senator Hoeven. I observed the biometric entry system at 
the Houston airport, utilized 100 percent. It appeared to me 
that it was very effective. So it was good to see that on the 
entry side, the progress you've made on biometrics.
    What about E-Verify? Talk a little bit about the progress 
you're making in terms of E-Verify.
    Secretary Johnson. I think mandatory E-Verify is a good 
thing. My recollection is that it was part of the comprehensive 
immigration reform bill that passed the Senate 2 years ago, and 
I think that mandatory E-Verify is a good thing, and we ought 
to do it.
    Senator Hoeven. It seems to me that if we can combine your 
effort to make sure that you have interoperability throughout 
the agency, that you don't have silos, that you have everybody 
working together as well as possible, which you indicated to me 
is one of your absolute priorities, and we can combine that 
with getting good metrics, it seems to me that that would be of 
great benefit to the entire homeland security effort.
    Secretary Johnson. I agree.
    Senator Shaheen. Thank you, Mr. Chairman. I have to inform 
you that while you were out, Senator Cassidy, Senator Baldwin, 
and I, as coastal States, all determined that funding the 
icebreaker is a top priority in the budget. So since you have 
no water, I figured you wouldn't object to that.
    Senator Hoeven. Our chairman was here and he mentioned 
another national security cutter, as I recall, so you have a 
little bit more work to do.

                           IMMIGRATION: BONDS

    Senator Shaheen. Let me refer again to the trip we took to 
Texas. This is an issue that I raised briefly with you, Mr. 
Secretary, but while I was there, I had the opportunity to 
speak with ICE attorneys, with immigration court personnel, 
with some outside groups who advocate for undocumented children 
and families who are in the immigration processing system.
    I heard different responses with respect to how bonds are 
set for families in immigration courts, and there didn't seem 
to be uniformity or at least an understanding among all those 
groups as to how those bonds are set. There was one allegation 
that it depends on how many identification documents the 
immigrant has, that the immigration judge could set a bond, but 
that ICE could come in and dramatically increase it.
    Can you clarify for us what the bond policy is, and what 
DHS is doing to make sure that people understand that and know 
how that is set?
    Secretary Johnson. Well, after our first conversation on 
this topic, I went back to ask these same questions. Bonds set 
by an immigration official can be reviewed by an immigration 
judge. They are reviewable by an immigration judge in every 
circumstance that the immigration lawyers I had around the 
table yesterday could imagine, when I asked this question.
    I asked, can an immigration official add a bond on top of 
what an immigration judge has set, and I was told no, bonds are 
reviewed by judges.
    When it comes to bond policy for family units, which is 
what we have been discussing, that is something that is under 
my review right now. I want to make sure that we have an 
appropriate and adequate bond policy for the current 
circumstances.
    We had a spike in illegal migration that involved family 
units last summer. We expanded our family unit detention 
capability. It looks, in the first 6 months of fiscal year 
2015, as if the numbers are way down and we will not have a 
repeat of last summer, although I am always on guard for that 
and am always looking at the numbers.
    I want to make sure we get our bond policy right for the 
current circumstances, so it is under review right now. Several 
Members of Congress, including you, have raised this issue with 
me. So I have undertaken, along with our Immigration and 
Customs Enforcement people and our lawyers, to look at the 
policy to make sure it's right.

                        FAMILY DETENTION CENTERS

    Senator Shaheen. Well, thank you. I appreciate that. And I 
would hope that once that has been determined, that there is a 
real effort made to make sure that all of those groups who are 
involved in these cases understand what that policy is and how 
it is determined, because clearly there is misinformation right 
now about that.
    Let me also raise another issue.
    Secretary Johnson. If I could, we are looking at the issue 
of family detention generally, to make sure it is right. I've 
sent a number of people down to the facilities to inspect the 
conditions, and it is something that I'm continually looking 
at.
    Senator Shaheen. And we did have a chance to visit Dilley 
while we were in Texas. I thought the conditions there, other 
than the fact that people were being detained, certainly were 
not conditions that I was concerned that people were not 
getting proper treatment. I thought that they seemed to be 
getting proper treatment.
    One of the other issues, however, that some of the 
advocates raised with me was about Karnes, the family detention 
center. We didn't have a chance to visit Karnes, but heard that 
there have been reports in the media of a hunger strike that 
may have taken place there.
    I just wondered if you were aware that there was under 
strike, and if you had any idea why people went on strike. One 
of the concerns that was raised was that some of the women were 
put in medical isolation rooms for their participation, or for 
speaking up about conditions.
    Do you know anything about that?
    Secretary Johnson. I've heard nothing to corroborate the 
suggestion that people are put in isolation rooms as a 
deterrent or as punishment or anything like that.
    On the issue of hunger strikes, we have looked into that 
rather extensively with a number of visits. I've received 
several reports. There are some people who report and assert to 
be on a hunger strike.
    The standard we have is a certain number of missed 
consecutive meals, and it does not appear that is the case. It 
also is the case that a number of people on strike are also 
going to the commissary. But it's entirely possible they are 
going to the commissary to feed their kids.
    So I know what my folks are telling me, and I'm having 
difficulty getting to a ground truth conclusion that there are, 
in fact, hunger strikes. But I am sensitive, having dealt with, 
as the lawyer for the Department of Defense, Guantanamo Bay, 
Bradley Manning, I am sensitive to not letting an issue like 
this overwhelm an overarching policy goal. So it's something 
that I'm carefully looking at.
    Senator Shaheen. Thank you. I appreciate your attention to 
that.
    Thank you, Mr. Chairman.
    Secretary Johnson. I don't mean to equate migrants in South 
Texas with detainees at Guantanamo Bay or anyplace else.
    Senator Shaheen. I did not take it that way.
    Secretary Johnson. Okay.

                          ADDRESSING INCIDENTS

    Senator Hoeven. Mr. Secretary, there have been a number of 
incidents: the gyrocopter on the Capitol grounds, a drone 
landing on the White House grounds, Secret Service going 
through a bomb investigation, a fence-jumper who got into the 
White House.
    Talk about what you're doing to make sure that these are 
fully addressed, fully understood, and that they are not 
repeated in the future. And particularly a situation where, in 
one of these incidents, somebody could have had a bomb or 
firearms or something.
    So how are you working with the respective agencies to make 
sure that these are fully understood, fully addressed, and not 
repeated?
    Secretary Johnson. Good question. Let me give you a couple 
answers.
    First of all, with respect to the airspace over the 
national capital region, which includes parts of this city that 
the Secret Service is responsible for securing, I had a meeting 
last week with the Commander of the USNORTHCOM, Admiral Bill 
Gortney, who is responsible militarily for the defense of North 
America, including our airspace here.
    We do have a protocol. DOD has aspects of it. Secret 
Service has aspects of it. The Coast Guard has aspects of it. 
The protocol kicks in--something airborne, something of 
suspicion--multiple times regularly.
    So what he and I have resolved to do is we have to take a 
closer look at whether we have the protocol right for something 
that is very low-flying and of low speed, like a gyrocopter 
that can fly at an altitude, or a drone, one of these smaller 
drone devices, that can fly at an altitude of 40 to 60 or 100 
feet.
    The military is not necessarily the correct response for 
something like that. So we have undertaken a review to assess 
low-flying, low-speed airborne devices, whether they are 
gyrocopters or smaller drone-type things, to make sure we have 
that right.
    With regard to fence jumpers, we are enhancing security at 
the White House compound short term. There was a request in our 
fiscal year 2016 budget submission to go further in that 
regard, to modify the fence, to make other enhancements to the 
security of the White House compound.
    And longer term, I believe that through sustained oversight 
of the Secret Service, we will make sure that the Secret 
Service is taking advantage of the latest improvements in 
technology and the latest research and development (R&D), both 
within my Department, and our science and technology 
directorate, and outside of the Department. So through the 
sustained engagement of the Secretary, I believe that the 
Secret Service, which has been a department that has somewhat 
of an insular culture to it, it takes adequate advantage of 
what is going on within my department and outside, in terms of 
the latest technology.
    So Director Clancy and I are both committed to doing that.

                       CYBERSECURITY: PRIORITIES

    Senator Hoeven. What are your biggest priorities in terms 
of cybersecurity? What are you focused on, in terms of trying 
to make sure we are getting on top of the cybersecurity issue?
    Secretary Johnson. A couple things: better information-
sharing with the private sector; encouraging the private sector 
to share with us cyberthreat indicators; faster, near real-time 
information-sharing that takes adequate account of privacy 
concerns.
    We have a program going right now at our NCCIC, our 
National Cybersecurity Communications and Integration Center, 
to better automate our information-sharing to make it faster.
    I believe that cyber legislation can help. I am pleased 
that two bills passed the House last week, in that regard. I 
think information-sharing is the key. I think that limits on 
criminal and civil liability for those who share cyberthreat 
indicators with the Department of Homeland Security is a strong 
inducement toward information-sharing. I believe that a 
national data breach notification requirement, as opposed to 
the patchwork of requirements we have across States, is a good 
thing, and we support it in the administration. I believe 
enhanced penalties for cyber crimes are warranted as well.
    But in general, something that gives the private sector a 
well-known primary portal of access for sharing cyberthreat 
information with the Federal Government is warranted. And we 
have done a number of things to move in that direction, with 
the cyber framework we announced last year. There was some 
legislation passed at the end of the last Congress that makes 
some steps in this direction.
    But I am very pleased to see that Congress is active in 
this, and I hope we can accomplish something on a bipartisan 
basis.

                    FIREARMS: TRANSPORTING OVERSEAS

    Senator Hoeven. Yes, that is encouraging to hear. I hope so 
as well. I think we have that opportunity, and I agree with you 
on it.
    This will be my last question. Recently, CBP issued a rule 
that for hunters taking their firearms overseas, they would 
have to get an employer ID number in the same way that somebody 
who is in the business of exporting firearms would get an 
employer ID number. Very problematic for sportsmen and hunters 
who want to hunt overseas, and they cross over on ground or 
they are flying somewhere to hunt.
    I met with Commissioner Kerlikowske, and he agreed to go 
back to the old process, one that the hunters have used for 
years. So I would just ask for your assurances that any changes 
made would be something common-sense and make sure that it 
works for hunters and sportsmen who are taking a firearm with 
them.
    Secretary Johnson. Let me look into that for you.
    Senator Hoeven. Thank you.
    Senator.

                         SECRET SERVICE ISSUES

    Senator Shaheen. Thank you, Mr. Chairman.
    I just have two more questions, and they are really follow-
ups to the issues that you've raised, the first with respect to 
the Secret Service.
    As Senator Hoeven said, there have been a number of issues 
with the Secret Service, and there have also been a number of 
recommendations from the Protective Mission Panel about how to 
address some of the issues that were raised by these incidents 
with the Secret Service. I want to commend the effort to go 
forward and address those recommendations, but also raise with 
you the concern about what the impact would be if we wind up 
with budget numbers that are near the sequester level and what 
that would do to the ability to carry out the recommendations 
from that panel.
    Secretary Johnson. Two things, really three things.
    One, we are entering a presidential election cycle. That 
means hiring more people. And we are about to have an 
additional former President. That means hiring more people, 
most likely.
    So in this budget request is a request for additional 
people for those two reasons, because one of the things the 
independent panel identified was that a lot of our people are 
working overtime. They are not getting adequate opportunity to 
train, as they should be.
    Part of this is on the Secret Service. They haven't hired 
as fast as the authorizations and appropriations from Congress.
    But one of the consequences of not funding the Secret 
Service to the requested level is it will have a direct impact 
on our ability to match the independent panel's recommendations 
and our ability to hire the people that we need for the 
protection mission.
    Senator Shaheen. Given that we can't postpone the election 
and we know that we are going to have another President, what 
would that mean in terms of the security?
    Secretary Johnson. It means that our people are further 
stretched in terms of overtime, in terms of their ability to 
train. The independent investigation identified the need for 
just getting our folks additional time to do their training.
    So if we have to fund the Secret Service at sequestration 
levels in the midst of a presidential election cycle with a lot 
of people who are running, some of whom may require Secret 
Service protection, that's going to be a real crunch. This is 
right now, for the Secret Service, given the needs and demands 
on that agency that have been highlighted. And given where we 
are in the cycle, it is not the time to force them to function 
at sequestration levels.

                         CYBERSECURITY: HIRING

    Senator Shaheen. Thank you.
    Another follow-up on cybersecurity, because when we had 
Assistant Secretary Ozment here at an earlier hearing, one of 
the things that he and CIO McCormack talked about were the 
challenges of the work force, getting people who can address 
the very complex issues around cybersecurity, and our ability 
to compete with the private sector. We don't have enough people 
being trained at all, and then when we have to compete with the 
private sector in our ability to provide the pay and benefits 
that the private sector can, it's a real challenge.
    Do you want to speak to that?
    Secretary Johnson. Well, we got some relief in legislation 
last year. Part of the border pay reform legislation also 
included, I think, added authority for hiring cyber talent. And 
I would like to see us go further in that regard.
    You are correct that it is tough to compete with Citigroup 
and JPMorgan, the financial sector, and competing against 
Silicon Valley. When I gave a speech to 4,000 people at the RSA 
conference last week in San Francisco, one of my appeals was 
please think about serving the country for a couple years 
before you go into the private sector or before you return to 
the private sector.
    I have had to personally recruit cyber talent myself, to 
make sure we have the right people. And it is difficult. We 
need help. I'm competing against the private sector, and I'm 
competing against my interagency partners.
    So I agree that added cyber talent is crucial to our 
cybersecurity mission.
    Senator Shaheen. So maybe we need a cyber draft? Just 
kidding. I'm just kidding.
    Well, thank you very much, Mr. Secretary.
    And thank you, Mr. Chairman. It's been a very helpful 
discussion.
    Senator Hoeven. Thank you, Senator Shaheen.
    Again, Mr. Secretary, thank you for being here. We 
appreciate it very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 2 weeks from today. 
Senators may submit written questions for the record, and then 
we would ask that you would respond within a reasonable length 
of time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]

              Questions Submitted by Senator Thad Cochran
                 federal flood risk management standard
    Question. Please identify any non-government organizations or 
individuals that had any role whatsoever in composing, editing, 
drafting, reviewing or developing any part of the Federal Flood Risk 
Management Standard (FFRMS), the draft version of the Implementing 
Guidelines published in a Federal Register Notice on February 5, 2015, 
pursuant to EO 13690. Identify the individuals, their organizations, 
their roles in the process, including any individuals or organizations 
that worked through a contractual relationship with any office, agency 
or department of the Executive Branch.
    Answer. Executive Order (EO) 13690 revises and updates EO 11988 
(1977) and reflects insight gained from significant experience 
addressing Federal floodplain management issues since that time. In 
working to establish a new flood risk management standard, entities 
across the Federal Government drew on lessons learned from recent flood 
events, consensus-based standards, current practices within 
communities, input and views from a wide range of stakeholders and 
experts, and decades of experience under EO 11988. As detailed further 
below, the Standard reflects the work of the Mitigation Framework 
Leadership Group (MitFLG), the Hurricane Sandy Rebuilding Task Force, 
and the Task Force on Climate Preparedness and Resilience, among 
others. This process of incorporating lessons learned, input, and 
feedback--including from governors, mayors, and other stakeholders--
remains ongoing.
    The interagency Hurricane Sandy Rebuilding Task Force (created by 
EO 13632 (December 7, 2012)) played a significant role in the 
reassessment of Federal flood standards in light of experience with 
Hurricane Sandy and lessons learned since EO 11988 was issued in 1977. 
This Task Force was chaired by the Secretary of Housing and Urban 
Development (HUD), who led the effort in coordination with multiple 
Federal partners, as well as an advisory group composed of state, 
local, and tribal elected leaders. As one of its first actions, the 
Task Force developed a flood risk reduction standard for major Federal 
investment in Sandy rebuilding that took into account data on flood 
risk and applied that standard to all investments in Sandy-affected 
communities. After months of engagement by Federal partners--including 
with local leaders and community groups--the Task Force issued a 
Rebuilding Strategy, which established recommendations to help guide 
the Federal funding decisions related to Sandy-related rebuilding. The 
Task Force called for all major Sandy rebuilding projects in Sandy-
affected communities using Federal funding to be elevated or otherwise 
flood-proofed according to this flood risk reduction standard, which 
was created using the best available base flood data plus one 
additional foot of free board. Subsequent to this pilot program, the 
President's June 2013 Climate Action Plan directed agencies to take the 
appropriate actions to reduce risk to Federal investments, and 
specifically to update their flood risk reduction standards.
    In response to Hurricane Sandy, the President also established the 
President's State, Local, and Tribal Leaders Task Force on Climate 
Preparedness and Resilience in November 2013, with 26 governors, 
mayors, and local and tribal leaders serving as members. After a year-
long process of receiving input from across state, local, tribal, and 
territorial governments; private businesses; trade associations; 
academic organizations; civil society; and other stakeholders, the Task 
Force, in addition to several other recommendations, recommended to the 
President in November 2014:

        Federal agencies should adjust their practices in and around 
        floodplains to ensure that Federal assets will be resilient to 
        the effects of climate change, including sea level rise, more 
        frequent and severe storms, and increasing river flood risks, 
        as called for in the President's Climate Action Plan. Projects 
        that receive Federal funding should be sited and designed with 
        the best-available climate data and include margins of safety, 
        such as freeboard and setbacks, to account for uncertainties 
        and reduce costs and disruption from future hazards.

    Federal members of MitFLG, including representatives from the 
Departments of the Treasury, Interior, Commerce, Defense (including the 
U.S. Army Corps of Engineers, or USACE), Health and Human Services, 
HUD, Transportation, and Energy; the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA); the Environmental 
Protection Agency; the General Services Administration; the Office of 
Management and Budget; and the Council on Environmental Quality came 
together to apply lessons learned from Hurricane Sandy and other events 
across the country to bear more broadly through a Federal flood 
management standard, consistent with many of the Task Force on Climate 
Preparedness Force's recommendations and Resilience's recommendation 
and the President's Climate Action Plan directive. These members of the 
MitFLG worked to develop a Federal Flood Risk Management Standard 
(FFRMS) that reflects the best available science, lessons learned, and 
input and recommendations gathered from experience, feedback, 
government-led convening, and coordination and discussions with 
stakeholders on these issues.
    As a result of these efforts, on January 30, 2015, the President 
issued EO 13690, ``Establishing a Federal Flood Risk Management 
Standard and a Process for Further Soliciting and Considering 
Stakeholder Input.''
    Contractual support for facilitation and technical editing was 
initially provided under a FEMA contract by Clark Group LLC. 
Subsequently, those services were assumed under a USACE contract with 
The Council Oak.
    Question. Please identify the Governors, mayors, and other 
stakeholders from whom input was solicited prior to the establishment 
of the new FFRMS. Include the dates input was solicited, the dates any 
response or input was provided, and a summary of any input and 
responses that were considered in the development of the FFRMS.
    Answer. EO 13690 revises and updates EO 11988 (1977) and reflects 
insight gained from significant experience addressing Federal 
floodplain management issues since that time. In working to establish a 
new flood risk management standard, entities across the Federal 
Government drew on lessons learned from recent flood events, consensus-
based standards, current practices within communities, input and views 
from a wide range of stakeholders and experts, and decades of 
experience under EO 11988. As detailed further below, the Standard 
reflects the work of the MitFLG, the Hurricane Sandy Rebuilding Task 
Force, and the Task Force on Climate Preparedness and Resilience, among 
others. This process of incorporating lessons learned, input, and 
feedback--including from governors, mayors, and other stakeholders--
remains ongoing.
    The interagency Hurricane Sandy Rebuilding Task Force played a 
significant role in the reassessment of Federal flood standards in 
light of experience with Hurricane Sandy and lessons learned since EO 
11988 was issued in 1977. This Task Force was chaired by the Secretary 
of HUD, who led the effort in coordination with multiple Federal 
partners, as well as an advisory group composed of state, local, and 
tribal elected leaders. As one of its first actions, the Task Force 
developed a flood risk reduction standard for major Federal investment 
in Sandy rebuilding that took into account data on flood risk and 
applied that standard to all investments in Sandy-affected communities. 
After months of engagement by Federal partners--including with local 
leaders and community groups--the Task Force issued a Rebuilding 
Strategy, which established recommendations to help guide the Federal 
funding decisions related to Sandy-related rebuilding. The Task Force 
called for all major Sandy rebuilding projects in Sandy-affected 
communities using Federal funding to be elevated or otherwise flood-
proofed according to this flood risk reduction standard, which was 
created using the best available base flood data plus one additional 
foot of free board. Subsequent to this pilot program, the President's 
June 2013 Climate Action Plan directed agencies to take the appropriate 
actions to reduce risk to Federal investments, and specifically to 
update their flood risk reduction standards.
    In response to Hurricane Sandy, the President also established the 
President's State, Local, and Tribal Leaders Task Force on Climate 
Preparedness and Resilience in November 2013, with 26 governors, 
mayors, and local and tribal leaders serving as members. After a year-
long process of receiving input from across State, local, tribal, and 
territorial governments; private businesses; trade associations; 
academic organizations; civil society; and other stakeholders, the Task 
Force, in addition to several other recommendations, recommended to the 
President in November 2014:

        Federal agencies should adjust their practices in and around 
        floodplains to ensure that Federal assets will be resilient to 
        the effects of climate change, including sea level rise, more 
        frequent and severe storms, and increasing river flood risks, 
        as called for in the President's Climate Action Plan. Projects 
        that receive Federal funding should be sited and designed with 
        the best-available climate data and include margins of safety, 
        such as freeboard and setbacks, to account for uncertainties 
        and reduce costs and disruption from future hazards.

    Federal members of MitFLG, including representatives from the 
Departments of the Treasury, Interior, Commerce, Defense (including 
USACE), Health and Human Services, HUD, Transportation, and Energy; the 
Department of Homeland Security's FEMA; the Environmental Protection 
Agency; the General Services Administration; the Office of Management 
and Budget; and the Council on Environmental Quality came together to 
apply lessons learned from Hurricane Sandy and other events across the 
country to bear more broadly through a Federal flood management 
standard, consistent with many of the Task Force on Climate 
Preparedness Force's recommendations and Resilience's recommendation 
and the President's Climate Action Plan directive. These members of the 
MitFLG worked to develop an FFRMS that reflects the best available 
science, lessons learned, and input and recommendations gathered from 
experience, feedback, government-led convening, and coordination and 
discussions with stakeholders on these issues.
    As a result of these efforts, on January 30, 2015, the President 
issued EO 13690, ``Establishing a Federal Flood Risk Management 
Standard and a Process for Further Soliciting and Considering 
Stakeholder Input.''
    Contractual support for facilitation and technical editing was 
initially provided under a FEMA contract by Clark Group LLC. 
Subsequently, those services were assumed under a USACE contract with 
The Council Oak.
    Question. Please provide a detailed summary of the activities of 
the Mitigation Framework Leadership Group since its inception relating 
to the development of the FFRMS, including a list of Federal members. 
Also provide a list of non-Federal members, including state, local and 
tribal governments, private sector and non-government organizations, 
and include a summary of their involvement in the development of the 
FFRMS and the dates such involvement occurred.
    Answer. DHS issued the National Mitigation Framework (NMF), which 
established the MitFLG in 2013 to coordinate mitigation efforts across 
the Federal Government and to assess the effectiveness of mitigation 
core capabilities as they are developed and deployed across the Nation. 
The MitFLG includes 10 State, local, tribal, and territorial members 
that serve as nonFederal participants. Specifically, representatives 
from the State of Mississippi Department of Health; Terrebonne Parish, 
Louisiana, Commissioners; City of Palm Bay, Florida, Planning 
Department; and the New York City Office of Recovery and Resiliency 
have been members since July 2014. Representatives from the State of 
Georgia Environmental Finance Authority, Energy Resources Division; 
Tillamook County, Oregon; and the Fond Du Lac Tribe of the Chippewa 
have been members since April 2015. The MitFLG facilitates information 
exchange, coordinates policy implementation recommendations on 
national-level issues, and oversees the successful implementation of 
the NMF.
    Question. Consistent with Executive Orders 13563 and 12866, please 
detail the methods used in determining the costs, benefits or 
scientific rationale of the FFRMS prior to its issuance, and provide 
the results of any such analyses.
    Answer. The issuance of an EO does not require that a cost-benefit 
analysis of alternatives be completed. However, an economic analysis is 
typically required as agencies undertake rulemaking or significant 
policy development.
    Once the implementing guidelines are finalized, each Federal agency 
will carefully consider how to appropriately apply this standard to 
their programs. In many cases, those individual agency processes of 
updating regulations and procedures will involve their own process of 
notice and comment.
    When implemented, the FFRMS will reduce flood risk, increase 
resilience, and diminish the likelihood of future losses, thereby 
reducing future costs to the Federal Government, state and local 
governments, and the private sector.
    Floodplain management standards have a proven record of reducing 
the costs of floods to individuals, communities, the Federal Treasury, 
and society as a whole. The existing floodplain management standard 
saves the country more than $1.6 billion annually in prevented damages. 
But given the challenges of the increasing number and intensity of 
flood events, EO 13690 seeks to create a higher standard to better 
protect communities, national investments, and lives.
    Previous studies have shown that the expense of elevating new 
structures during construction is low, generally adding between 0.25 to 
1.5 percent to the total construction costs for each foot of added 
height.
    Projects based on these standards have been shown to be cost-
effective and provide longer-term protection against future disasters. 
Additionally, the Multi-hazard Mitigation Council of the National 
Institute of Building Sciences conducted a study on the benefits of 
FEMA-funded mitigation projects and concluded that they were successful 
and cost-effective, saving society, on the average, $4 for every dollar 
spent. Put simply, studies show that although building higher and safer 
can be more costly initially, over time, it saves money because future 
storms cause less damage to properly elevated buildings.
    Further, for structures built using Federal funds that require the 
purchase of flood insurance, the cost of building to the FFRMS may in 
some instances be recovered, in full or in part, in the form of 
decreased insurance policy payments.
    Question. Please provide a detailed accounting of any activities to 
engage the public and their representatives in Congress in the 
development of the FFRMS prior to January 30, 2015, not otherwise 
addressed herein.
    Answer. Please see the answer to the first question for a summary 
of the background of the development of the FFRMS.
    Question. Please provide a detailed accounting of any funds 
expended to support the activities of the Water Resources Council, 
including the source of all such funds. Identify any Executive Branch 
personnel, including offices, departments, and agencies, utilized to 
support the activities of the Water Resources Council. Also include the 
dates any meetings of the Water Resources Council were held, attendance 
at such meetings, and whether there was any public notice of any 
meetings.
    Answer. The Water Resources Council (WRC), a group comprised of the 
heads of eight departments and agencies, has not convened to date 
regarding the FFRMS, issued in January of this year.
                                 ______
                                 
              Questions Submitted by Senator Bill Cassidy
                              immigration
    Question. The Administration has requested a more than 17 percent 
increase for Immigration and Customs Enforcement (ICE) and more than 6 
percent for Customs and Border Protection and Citizenship and 
Immigration Services. Together, this is a nearly $2 billion request for 
three organizations within your agency.
    While I absolutely believe we need to secure the border and provide 
the resources for our men and women to do that, I'm also concerned 
about our lack of interior enforcement. In April 2014 in an article 
published by the Los Angeles Times, months before the President issued 
his new round of amnesty, former ICE Director John Sandweg said, ``If 
you are a run-of-the-mill immigrant here illegally, your odds of 
getting deported are close to zero--it's just highly unlikely to 
happen.''. In fact, the Associated Press reported last September ``DHS 
confided to a group of immigrant advocates during a confidential 
meeting that about 70 percent of illegal immigrants traveling as 
families failed to report back to ICE as ordered after they were 
released at the border.''
    The reality is that with numerous options for illegals to remain in 
this country, many more will be allowed to stay if they aren't deemed a 
priority for removal.
    And earlier this month, the Washington Times reported that ICE had 
released more than 30,000 criminal aliens back into the community. In 
fact, an internal ICE report from the Office of Enforcement and Removal 
Operations from last fall showed that nearly 900,000 aliens who had 
received a final order of removal were still in the United States. 
167,000 of those were convicted criminals released by ICE and were at-
large.
    (a) Given that the data I've cited was from September and the 
Administration issued its new executive orders in November, is it safe 
to assume the number is higher than 900,000?
    (b) For fiscal year 2015, the Administration requested $5.4 billion 
for ICE. Half of that request was for Detention and Removal 
Operations--$2.57 billion. Congress recently approved $5.93 for ICE 
billion a few months ago, and $3.4 billion for Detention and Removal 
Operations. For fiscal year 2016, the Administration has requested 
$6.28 billion for ICE, an increase of about $350 million, yet they've 
actually requested less for Detention and Removal Operations--$3.3 
billion. I share this with you, because it further highlights the 
Administration unwillingness to enforce our immigration laws.
    (c) This morning the Associated Press reported that deportations 
are on track to be the lowest since the middle of the last decade. You 
were quoted as saying, ``there's lower intake, lower apprehensions.'' 
But we'd both agree that there could be close to 1 million illegal 
immigrants with final order for removal.
    (d) You also said a contributing factor to the decline is due to 
the process for removing illegal immigrants from countries other than 
Canada and Mexico is different. However, according to data from DOJ's 
Executive Office for Immigration Review the number of in absentia 
orders for aliens released on bond or on their own recognizance 
increased by 153 percent. So they are not even showing up, and it's 
clear from the number I've cited that your Department isn't even trying 
to fulfill these court orders. How do you reconcile all of this in the 
context of job performance?
    Answer. As of May 9, 2015, there are currently 911,959 individuals 
who have been issued final orders of removal from an immigration judge 
or by the Board of Immigration Appeals who are still physically present 
in the United States. They include aliens whose cases are before a 
Federal court on appeal. This figure includes those detained in ICE 
custody pending removal, those who have been booked out of ICE custody 
and placed on orders of supervision or other condition of release, and 
those whose removal orders ICE may seek to enforce consistent with the 
Department's existing civil enforcement priorities.
    The reality is that it also includes individuals who are not 
priorities for enforcement action under the Department's civil 
enforcement guidelines. In the November 20, 2014, memorandum entitled 
Policies for the Apprehension, Detention and Removal of Undocumented 
Immigrants, I outlined clear Department-wide enforcement priorities 
that guide all of DHS's immigration enforcement actions. These 
priorities ensure that the Department focuses its limited resources on 
individuals who pose the greatest risk to public safety, national 
security, and border security. Accordingly, DHS is endeavoring to use 
appropriate prosecutorial discretion and is dedicating resources, to 
the greatest degree possible, toward the removal of individuals who are 
considered enforcement priorities, which includes recent border 
entrants, as well as those who have been convicted of felonies, 
convicted of significant or multiple misdemeanors, and engaged in gang 
activity.
    In fiscal year (FY) 2015, Congress appropriated $5.93 billion for 
U.S. Immigration and Customs Enforcement's (ICE) Salaries and Expenses 
appropriation, of which $3.4 billion was for Detention and Removal 
Operations. The fiscal year 2016 President's Budget requests $5.88 
billion for the Salaries and Expenses appropriation, of which $3.3 
billion is for Detention and Removal Operations.
    The net result of ICE's immigration enforcement efforts each fiscal 
year are driven by a number of factors, including but not limited to: 
the number of individuals apprehended at the border; the level of 
cooperation that we receive from our state and local law enforcement 
partners as part of our interior apprehension efforts; the need for the 
agency to expend resources in response to emergent situations; and/or 
whether or not state statutes or other legislation are passed or 
judicial decisions are issued that have an adverse impact on the 
abilities of ICE agents/officers to enforce the immigration laws. 
Despite these largely external forces, in fiscal year 2014, ICE was 
nevertheless able to conduct 315,943 removals and returns, 102,224 of 
which were individuals apprehended in the interior of the United 
States. Eighty-five percent of the individuals removed or returned from 
the interior had been convicted of a criminal offense, reflecting a 
significant increase in the removal of individuals with convictions as 
a percentage of overall removals, up from 67 percent in fiscal year 
2011 and 38 percent in fiscal year 2008.
    In 2014, and continuing now under the clear priorities outlined in 
the November 20, 2014, memorandum entitled, ``Policies for the 
Apprehension, Detention, and Removal of Undocumented Immigrants,'' ICE 
focused its resources on individuals who pose the greatest risk to 
public safety, national security, and border security. To that end, 
more than 309,000, or 98 percent of all of ICE's removals in fiscal 
year 2014, met one or more of the Department's civil immigration 
enforcement priorities at the time.
    ICE agents, officers, and attorneys review each case they are 
presented with, considering not only whether the individual is a civil 
immigration enforcement priority, but also any other extenuating 
circumstances related to the particular offense, how long ago it 
occurred, evidence of rehabilitation, ties and contributions to the 
community, and compelling humanitarian factors. ICE personnel not only 
assess whether a violation of the immigration law has occurred, but 
whether the particular enforcement action is in line with the agency's 
enforcement priorities and whether the agency is likely to succeed in 
pursuing the individual's removal, based on the available evidence and 
relevant case law.
    Question. Mr. Secretary, USCIS is funded primarily by the 
collection of fees. The majority of its budget comes from fees that are 
collected from applicants for most types of immigration benefits. The 
Immigration and Nationality Act requires that the agency is supposed to 
charge applicants a fee that equals the cost of processing the benefit, 
plus some money for the agency's overhead and also to subsidize the 
processing of applications for which there is no fee such as refugee 
and asylum applications, military naturalizations, the anti-fraud 
division, low-income applicants who qualify for a fee waiver and other 
activities.
    Recently, USCIS Chief Financial Officer Joseph Moore revealed 
during a Senate Judiciary Subcommittee hearing on March 3, 2015, that 
USCIS has accumulated a ``reserve fund'' that now totals $1.2 billion.
    Why does USCIS need a 6 percent increase when it has $1.2 billion 
in unexpended revenues?
    Answer. The agency's fee account budget estimates for fiscal year 
2015 and fiscal year 2016 that were presented in the fiscal year 2016 
President's Budget were developed prior to the injunction halting the 
implementation of Deferred Action for Parents of Americans and Lawful 
Permanent Residents (DAPA) and the expanded Deferred Action for 
Childhood Arrivals (DACA). As such, the fiscal year 2016 budget 
estimates assumed full implementation of DAPA, expanded DACA, and all 
other Executive Action (EA) initiatives that were not enjoined and are 
moving forward. The fiscal year 2016 budget estimates showed projected 
growth in spending from $3.770 billion in fiscal year 2015 to $4.004 
billion in fiscal year 2016 (across all accounts)--an increase of 
$223.612 million or six percent. Most of this projected growth in 
spending is attributable to the anticipated future implementation of 
the DAPA and expanded DACA initiatives (from which, as noted, U.S. 
Citizenship and Immigration Services (USCIS) is currently enjoined from 
implementing). However, USCIS currently is operating within its $3.260 
billion spending estimates provided to Congress in the fiscal year 2015 
President's Budget, which is well below the $3.770 billion spending 
level presented in the fiscal year 2016 President's Budget. As the DAPA 
and expanded DACA initiatives are currently enjoined, USCIS does not 
anticipate that it will spend at the $3.770 billion level presented in 
the fiscal year 2016 budget for fiscal year 2015. Revised fiscal year 
2015 spending estimates for the USCIS fee accounts have been submitted 
to the House and Senate appropriations committees in the form of a 
reprogramming notification pursuant to Section 503 of the fiscal year 
2015 DHS Appropriations Act (Public Law 114-4). Assuming that DAPA and 
expanded DACA remain enjoined in fiscal year 2016, USCIS likely will 
have spending requirements similar to the fiscal year 2015 level. 
However, even if the injunction remains in force, there may be 
operational conditions unrelated to DAPA and expanded DACA (e.g., 
workload changes in other benefit types) that drive changes in 
projected spending requirements for fiscal year 2016. USCIS continues 
to monitor operational conditions and anticipated workloads and will 
adjust its spending estimates accordingly.
    USCIS's estimated spending authority presented in the annual budget 
submission represents what USCIS anticipates it needs to spend in order 
to meet its mission and maintain acceptable application and petition 
processing times. To meet its fee account spending requirements, USCIS 
may have to use a combination of available current year revenue and 
carryover balances from prior year revenue collections. Because USCIS 
cannot predict application and petition volumes, or processing costs, 
with 100-percent accuracy, in some years revenue collections will 
exceed spending and in others spending will exceed revenue collections. 
Over time, through its fee review and fee-setting processes, USCIS 
seeks to set fees at a level that will recover actual costs so that 
revenues and expenses net out.
    Question. The fiscal year 2016 budget fee account spending 
estimates represent notification to Congress of projected spending for 
the upcoming fiscal year from revenue that USCIS projects it will 
collect plus available carryover balances. As annual revenue is 
projected to be lower than spending, a portion of the carryover balance 
in the account is part of the required spending authority presented to 
Congress in the President's Budget, rather than the spending authority 
requested in the budget being an increase over the carryover balance.
    Mr. Moore told the subcommittee that the Agency has a policy to 
maintain $600 million in reserves in the event of revenue fluctuations. 
What is the Agency's intended purpose for the other $600 million?
    Answer. Of the approximately $1.2 billion of prior year revenue 
collections that USCIS carried over in the Immigration Examinations Fee 
Account (IEFA) at the start of fiscal year 2015 (after adjusting for 
the release of fiscal year 2014 temporarily sequestered funds), 
approximately $467 million was from premium processing revenue 
authorized by Section 286(u) of the Immigration and Nationality Act 
(INA). Use of premium process revenue is statutorily limited to provide 
certain premium processing services to business customers, and to make 
infrastructure improvements in the adjudications and customer service 
processes. As such, these balances are not available to meet general 
agency operating expenses. Since the 2007 fee rule, USCIS has devoted 
premium processing revenue to the Transformation Program (currently 
referred to as the Electronic Immigration System--USCIS ELIS). However, 
since that fee rule, demand for premium processing services has grown 
and has exceeded Transformation spending, resulting in the $467 million 
premium processing balance at the start of fiscal year 2015. Based on 
the annual funding requirements included in the Life Cycle Cost 
Estimate for the Transformation program, USCIS has more premium 
processing funding than it will need to fund the program. As a result, 
USCIS currently is considering options for expanding the use of premium 
processing revenue to fund other types of expenses that are consistent 
with the statutory limitations.
    The remaining balance of approximately $735 million was from 
nonpremium processing revenues authorized by Section 286(m) and (n) of 
the INA. USCIS traditionally has maintained at least $600 million in 
carryover in the account to adjudicate applications and petitions that 
were received during the prior year but have not been adjudicated yet 
(since applicants/petitioners pay the fee at the time their 
application/petition is submitted, not when the application/petition is 
adjudicated). The carryover also is needed for cash-flow purposes, 
because the agency incurs obligations and expends funds to meet payroll 
and contractual requirements to continue operations at the start of the 
fiscal year, before it has collected sufficient current year revenue. 
This is similar to a business that must maintain operating balances for 
cash-flow needs. Unlike agencies that receive discretionary 
appropriations that are accompanied by a Treasury warrant that funds 
the full annual appropriation amount shortly after the appropriations 
bill is enacted, the USCIS fee accounts have to rely on prior year 
collections to meet obligations until sufficient current year revenues 
are deposited in the fee accounts. Carryover balances also are needed 
to mitigate the impact of fluctuations in revenue due to economic 
conditions to ensure that sufficient funding is available to cover 
fixed costs, while making the appropriate operational resource 
adjustments.
    Question. In fiscal year 2015, USCIS projects that nonpremium 
spending is expected to exceed non-premium revenue. As a result, USCIS 
anticipates that the fiscal year 2016 beginning IEFA non-premium 
processing revenue balance likely will drop below $600 million. USCIS 
is considering options to expand its use of premium processing revenues 
to fund other types of expenses, consistent with the statutory 
limitations, to better align available funding with spending 
requirements.
    The fee for DACA applicants ($485) only accounts for biometric 
screening and work authorization. Yes or no? Will you be using revenues 
from other immigrant fees to account for the full cost of processing 
applications created under President Obama's executive orders?
    Answer. Yes; however, DACA requestors must file Form I-821D, 
Consideration of Deferred Action for Childhood Arrivals (no fee) and 
Form I-765, Application for Employment Authorization ($380), and pay 
the Biometric Services Fee ($85) for a total of $465. The revenue from 
these fees has proven sufficient to cover the cost of the initiative, 
which requires adjudicating the Form I-821D and Form I-765 as a 
package.
    For the parts of Executive Action (EA) that are not halted due to 
the injunction, USCIS is operating within its fiscal year 2015 spending 
estimates provided to Congress, is using available fee account revenue 
to support implementation of these initiatives, and expects that it 
will realize revenues that fully offset the additional costs. Should 
the injunction preventing implementation of the DAPA and expanded DACA 
initiatives be lifted, USCIS similarly would use available balances and 
manage any new start-up costs within its fiscal year 2015 spending 
authority until new fee revenues were collected from individuals 
requesting DAPA or expanded DACA, to fully offset the cost of the 
initiatives. USCIS does not intend that other fee-paying customers will 
subsidize the EA initiatives.
                         ffrms executive order
    Question. On February 6, 2015 I joined Senators Thad Cochran (R-
MS), David Vitter (R-LA), John Cornyn (R-TX), Johnny Isakson (R-GA), 
Roger Wicker (R-MS), Roy Blunt (R--MO) and John Boozman (R-AR) in 
sending a letter to President Obama regarding his issuance of Executive 
Order 13690, ``Establishing a Federal Flood Risk Management Standard 
(FFRMS) and a process for Further Soliciting and Considering 
Stakeholder Input.'' As I detailed in the letter I am concerned with 
the implementation of this Executive Order because its development was 
conducted with little transparency or input from the public or 
lawmakers.
    Which non-government organizations or individuals that had a role 
in composing, editing, drafting, reviewing or developing any part of 
the FFRMS, the draft version of the Implementing Guidelines published 
in a Federal Register Notice on February 5, 2015, pursuant to EO 13690. 
Who were the individuals, their organizations, and were their roles in 
the process, including any individuals or organizations that worked 
through a contractual relationship with any office, agency or 
department of the Executive Branch?
    Answer. Executive Order (EO) 13690 revises and updates EO 11988 
(1977) and reflects insight gained from significant experience 
addressing Federal floodplain management issues since that time. In 
working to establish a new flood risk management standard, entities 
across the Federal Government drew on lessons learned from recent flood 
events, consensus-based standards, current practices within 
communities, input and views from a wide range of stakeholders and 
experts, and decades of experience under EO 11988. As detailed further 
below, the Standard reflects the work of the Mitigation Framework 
Leadership Group (MitFLG), the Hurricane Sandy Rebuilding Task Force, 
and the Task Force on Climate Preparedness and Resilience, among 
others. This process of incorporating lessons learned, input, and 
feedback--including from governors, mayors, and other stakeholders--
remains ongoing.
    The interagency Hurricane Sandy Rebuilding Task Force (created by 
EO 13632 (December 7, 2012)) played a significant role in the 
reassessment of Federal flood standards in light of experience with 
Hurricane Sandy and lessons learned since EO was issued in 1977. This 
Task Force was chaired by the Secretary of Housing and Urban 
Development (HUD), who led the effort in coordination with multiple 
Federal partners, as well as an advisory group composed of state, 
local, and tribal elected leaders. As one of its first actions, the 
Task Force developed a flood risk reduction standard for major Federal 
investment in Sandy rebuilding that took into account data on flood 
risk and applied that standard to all investments in Sandy-affected 
communities. After months of engagement by Federal partners--including 
with local leaders and community groups--the Task Force issued a 
Rebuilding Strategy, which established recommendations to help guide 
the Federal funding decisions related to Sandy-related rebuilding. The 
Task Force called for all major Sandy rebuilding projects in Sandy-
affected communities using Federal funding to be elevated or otherwise 
flood-proofed according to this flood risk reduction standard, which 
was created using the best available base flood data plus one 
additional foot of free board. Subsequent to this pilot program, the 
President's June 2013 Climate Action Plan directed agencies to take the 
appropriate actions to reduce risk to Federal investments, and 
specifically to update their flood risk reduction standards.
    In response to Hurricane Sandy, the President also established the 
President's State, Local, and Tribal Leaders Task Force on Climate 
Preparedness and Resilience in November 2013, with 26 governors, 
mayors, and local and tribal leaders serving as members. After a year-
long process of receiving input from across State, local, tribal and 
territorial governments, private businesses, trade associations, 
academic organizations, civil society, and other stakeholders, the Task 
Force, in addition to several other recommendations, recommended to the 
President in November 2014:

        Federal agencies should adjust their practices in and around 
        floodplains to ensure that Federal assets will be resilient to 
        the effects of climate change, including sea level rise, more 
        frequent and severe storms, and increasing river flood risks, 
        as called for in the President's Climate Action Plan. Projects 
        that receive Federal funding should be sited and designed with 
        the best-available climate data and include margins of safety, 
        such as freeboard and setbacks, to account for uncertainties 
        and reduce costs and disruption from future hazards.

    Federal members of the MitFLG, including representatives from the 
Departments of the Treasury, Interior, Commerce, Defense (including the 
U.S. Army Corps of Engineers, or USACE), Health and Human Services, 
HUD, Transportation, and Energy; the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA); the Environmental 
Protection Agency; the General Services Administration; the Office of 
Management and Budget; and the Council on Environmental Quality came 
together to apply lessons learned from Hurricane Sandy and other events 
across the country to bear more broadly through a Federal flood 
management standard, consistent with many of the Task Force on Climate 
Preparedness and Resilience's recommendations and the President's 
Climate Action Plan directive. These members of the MitFLG worked to 
develop a Federal Flood Risk Management Standard (FFRMS) that reflects 
the best available science, lessons learned, and input and 
recommendations gathered from experience, feedback, government-led 
convening, and coordination and discussions with stakeholders on these 
issues.
    Question. As a result of these efforts, on January 30, 2015, the 
President issued EO 13690, ``Establishing a Federal Flood Risk 
Management Standard and a Process for Further Soliciting and 
Considering Stakeholder Input.''
    Contractual support for facilitation and technical editing was 
initially provided under a FEMA contract by Clark Group LLC. 
Subsequently, those services were assumed under a USACE contract with 
The Council Oak.
    Which Governors, mayors, and other stakeholders did FEMA solicit 
information from prior to the establishment of the new FFRMS?
    Answer. EO 13690 revises and updates EO 11988 and reflects insight 
gained from significant experience addressing Federal floodplain 
management issues since that time. In working to establish a new flood 
risk management standard, entities across the Federal Government drew 
on lessons learned from recent flood events, consensus-based standards, 
current practices within communities, input and views from a wide range 
of stakeholders and experts, and decades of experience under EO 11988. 
As detailed further below, the Standard reflects the work of the 
MitFLG, the Hurricane Sandy Rebuilding Task Force, and the Task Force 
on Climate Preparedness and Resilience, among others. This process of 
incorporating lessons learned, input, and feedback--including from 
governors, mayors, and other stakeholders--remains ongoing.
    The interagency Hurricane Sandy Rebuilding Task Force (created by 
EO 13632) played a significant role in the reassessment of Federal 
flood standards in light of experience with Hurricane Sandy and lessons 
learned since EO was issued in 1977. This Task Force was chaired by the 
Secretary of HUD, who led the effort in coordination with multiple 
Federal partners, as well as an advisory group composed of state, 
local, and tribal elected leaders. As one of its first actions, the 
Task Force developed a flood risk reduction standard for major Federal 
investment in Sandy rebuilding that took into account data on flood 
risk and applied that standard to all investments in Sandy-affected 
communities. After months of engagement by Federal partners--including 
with local leaders and community groups--the Task Force issued a 
Rebuilding Strategy, which established recommendations to help guide 
the Federal funding decisions related to Sandy-related rebuilding. The 
Task Force called for all major Sandy rebuilding projects in Sandy-
affected communities using Federal funding to be elevated or otherwise 
flood-proofed according to this flood risk reduction standard, which 
was created using the best available base flood data plus one 
additional foot of free board. Subsequent to this pilot program, the 
President's June 2013 Climate Action Plan directed agencies to take the 
appropriate actions to reduce risk to Federal investments, and 
specifically to update their flood risk reduction standards.
    In response to Hurricane Sandy, the President also established the 
President's State, Local, and Tribal Leaders Task Force on Climate 
Preparedness and Resilience in November 2013, with 26 governors, 
mayors, and local and tribal leaders serving as members. After a year-
long process of receiving input from across State, local, tribal and 
territorial governments, private businesses, trade associations, 
academic organizations, civil society, and other stakeholders, the Task 
Force, in addition to several other recommendations, recommended to the 
President in November 2014:

        Federal agencies should adjust their practices in and around 
        floodplains to ensure that Federal assets will be resilient to 
        the effects of climate change, including sea level rise, more 
        frequent and severe storms, and increasing river flood risks, 
        as called for in the President's Climate Action Plan. Projects 
        that receive Federal funding should be sited and designed with 
        the best-available climate data and include margins of safety, 
        such as freeboard and setbacks, to account for uncertainties 
        and reduce costs and disruption from future hazards.

    Federal members of the MitFLG, including representatives from the 
Departments of the Treasury, Interior, Commerce, Defense (including 
USACE), Health and Human Services, HUD, Transportation, and Energy; the 
Department of Homeland Security's FEMA; the Environmental Protection 
Agency; the General Services Administration; the Office of Management 
and Budget; and the Council on Environmental Quality came together to 
apply lessons learned from Hurricane Sandy and other events across the 
country to bear more broadly through a Federal flood management 
standard, consistent with many of the Task Force on Climate 
Preparedness and Resilience's recommendations and the President's 
Climate Action Plan directive. These members of the MitFLG worked to 
develop an FFRMS that reflects the best available science, lessons 
learned, and input and recommendations gathered from experience, 
feedback, government-led convening, and coordination and discussions 
with stakeholders on these issues.
    Question. As a result of these efforts, on January 30, 2015, the 
President issued EO 13690, ``Establishing a Federal Flood Risk 
Management Standard and a Process for Further Soliciting and 
Considering Stakeholder Input.''
    Contractual support for facilitation and technical editing was 
initially provided under a FEMA contract by Clark Group LLC. 
Subsequently, those services were assumed under a USACE contract with 
The Council Oak.
    Please summarize the activities of the Mitigation Framework 
Leadership Group since its inception relating to the development of the 
FFRMS, including a list of Federal members. Also a list of non-Federal 
members, including state, local and tribal governments, private sector 
and non-government organizations, and please summarize their 
involvement in the development of the FFRMS and the dates such 
involvement occurred.
    Answer. DHS issued the National Mitigation Framework (NMF), which 
established the MitFLG in 2013 to coordinate mitigation efforts across 
the Federal Government and to assess the effectiveness of mitigation 
core capabilities as they are developed and deployed across the Nation. 
The MitFLG includes 10 state, local, tribal, and territorial members 
that serve as nonFederal participants. Specifically, representatives 
from the State of Mississippi Department of Health; Terrebonne Parish, 
Louisiana, Commissioners; City of Palm Bay, Florida, Planning 
Department; and the New York City Office of Recovery and Resiliency 
have been members since July 2014. Representatives from the State of 
Georgia Environmental Finance Authority, Energy Resources Division; 
Tillamook County, Oregon; and the Fond Du Lac Tribe of the Chippewa 
have been members since April 2015. The MitFLG facilitates information 
exchange, coordinates policy implementation recommendations on 
national-level issues, and oversees the successful implementation of 
the NMF.
    Question. Please detail the Administration's methods used in 
determining the costs, benefits or scientific rationale of the FFRMS 
prior to its issuance, and provide the results of any such analyses.
    Answer. The issuance of an EO does not require that a cost-benefit 
analysis of alternatives be completed. However, an economic analysis is 
typically required as agencies undertake rulemaking or significant 
policy development.
    Once the implementing guidelines are finalized, each Federal agency 
will carefully consider how to appropriately apply this standard to 
their programs. In many cases, those individual agency processes of 
updating regulations and procedures will involve their own process of 
notice and comment.
    When implemented, the FFRMS will reduce flood risk, increase 
resilience, and diminish the likelihood of future losses, thereby 
reducing future costs to the Federal Government, state and local 
governments, and the private sector.
    Floodplain management standards have a proven record of reducing 
the costs of floods to individuals, communities, the Federal Treasury, 
and society as a whole. The existing floodplain management standard 
saves the country more than $1.6 billion annually in prevented damages. 
But given the challenges of the increasing number and intensity of 
flood events, EO 13690 seeks to create a higher standard to better 
protect communities, national investments, and lives.
    Previous studies have shown that the expense of elevating new 
structures during construction is low, generally adding between 0.25 to 
1.5 percent to the total construction costs for each foot of added 
height.
    Projects based on these standards have been shown to be cost-
effective and provide longer-term protection against future disasters. 
Additionally, the Multi-hazard Mitigation Council of the National 
Institute of Building Sciences conducted a study on the benefits of 
FEMA-funded mitigation projects and concluded that they were successful 
and cost-effective, saving society, on the average, $4 for every dollar 
spent. Put simply, studies show that although building higher and safer 
can be more costly initially, over time, it saves money because future 
storms cause less damage to properly elevated buildings.
    Question. Further, for structures built using Federal funds that 
require the purchase of flood insurance, the cost of building to the 
FFRMS may in some instances be recovered, in full or in part, in the 
form of decreased insurance policy payments.
    Did FEMA or the Administration conduct any activities to engage the 
public and their representatives in Congress in the development of the 
FFRMS prior to January 30, 2015?
    Answer. EO 13690 revises and updates EO 11988 (1977) and reflects 
insight gained from significant experience addressing Federal 
floodplain management issues since that time. In working to establish a 
new flood risk management standard, entities across the Federal 
Government drew on lessons learned from recent flood events, consensus-
based standards, current practices within communities, input and views 
from a wide range of stakeholders and experts, and decades of 
experience under EO 11988. As detailed further below, the Standard 
reflects the work of the Mitigation Framework Leadership Group 
(MitFLG), the Hurricane Sandy Rebuilding Task Force, and the Task Force 
on Climate Preparedness and Resilience, among others. This process of 
incorporating lessons learned, input, and feedback--including from 
governors, mayors, and other stakeholders--remains ongoing.
    The interagency Hurricane Sandy Rebuilding Task Force (created by 
EO 13632) played a significant role in the reassessment of Federal 
flood standards in light of experience with Hurricane Sandy and lessons 
learned since EO was issued in 1977. This Task Force was chaired by the 
Secretary of HUD, who led the effort in coordination with multiple 
Federal partners, as well as an advisory group composed of state, 
local, and tribal elected leaders. As one of its first actions, the 
Task Force developed a flood risk reduction standard for major Federal 
investment in Sandy rebuilding that took into account data on flood 
risk and applied that standard to all investments in Sandy-affected 
communities. After months of engagement by Federal partners--including 
with local leaders and community groups--the Task Force issued a 
Rebuilding Strategy, which established recommendations to help guide 
the Federal funding decisions related to Sandy-related rebuilding. The 
Task Force called for all major Sandy rebuilding projects in Sandy-
affected communities using Federal funding to be elevated or otherwise 
flood-proofed according to this flood risk reduction standard, which 
was created using the best available base flood data plus one 
additional foot of free board. Subsequent to this pilot program, the 
President's June 2013 Climate Action Plan directed agencies to take the 
appropriate actions to reduce risk to Federal investments, and 
specifically to update their flood risk reduction standards.
    In response to Hurricane Sandy, the President also established the 
President's State, Local, and Tribal Leaders Task Force on Climate 
Preparedness and Resilience in November 2013, with 26 governors, 
mayors, and local and tribal leaders serving as members. After a year-
long process of receiving input from across State, local, tribal and 
territorial governments, private businesses, trade associations, 
academic organizations, civil society, and other stakeholders, the Task 
Force, in addition to several other recommendations, recommended to the 
President in November 2014:

        Federal agencies should adjust their practices in and around 
        floodplains to ensure that Federal assets will be resilient to 
        the effects of climate change, including sea level rise, more 
        frequent and severe storms, and increasing river flood risks, 
        as called for in the President's Climate Action Plan. Projects 
        that receive Federal funding should be sited and designed with 
        the best-available climate data and include margins of safety, 
        such as freeboard and setbacks, to account for uncertainties 
        and reduce costs and disruption from future hazards.

    Federal members of the MitFLG, including representatives from the 
Departments of the Treasury, Interior, Commerce, Defense (including 
USACE), Health and Human Services, HUD, Transportation, and Energy; the 
Department of Homeland Security's FEMA; the Environmental Protection 
Agency; the General Services Administration; the Office of Management 
and Budget; and the Council on Environmental Quality came together to 
apply lessons learned from Hurricane Sandy and other events across the 
country to bear more broadly through a Federal flood management 
standard, consistent with many of the Task Force on Climate 
Preparedness and Resilience's recommendations and the President's 
Climate Action Plan directive. These members of the MitFLG worked to 
develop an FFRMS that reflects the best available science, lessons 
learned, and input and recommendations gathered from experience, 
feedback, government-led convening, and coordination and discussions 
with stakeholders on these issues.
    Question. As a result of these efforts, on January 30, 2015, the 
President issued EO 13690, ``Establishing a Federal Flood Risk 
Management Standard and a Process for Further Soliciting and 
Considering Stakeholder Input.''
    Contractual support for facilitation and technical editing was 
initially provided under a FEMA contract by Clark Group LLC. 
Subsequently, those services were assumed under a USACE contract with 
The Council Oak.
    Please provide a detailed accounting of any funds expended to 
support the activities of the Water Resources Council, including the 
source of all such funds. Identify any Executive Branch personnel, 
including offices, departments, and agencies, utilized to support the 
activities of the Water Resources Council. Also include the dates any 
meetings of the Water Resources Council were held, attendance at such 
meetings, and whether there was any public notice of any meetings.
    Answer. The Water Resources Council (WRC), a group comprised of the 
heads of eight departments and agencies, to date has not convened 
regarding, or been involved in, the Federal Flood Risk Management 
Standard, issued in January of this year.
    Question. In addition, this executive order would arbitrarily 
expand the definition of ``floodplain'' well beyond the long-accepted 
100-year floodplain historical definition and there is a great deal of 
uncertainty over the scope of this executive order and how it would 
apply to a variety of Federal government programs that interact 
directly with the private sector on construction-related issues. Does 
FEMA intend for the recent Executive Order on the Federal Flood Risk 
Management Standard to apply to private construction projects that need 
Federal permitting (i.e. Clean Water permits, Endangered Species Act 
permits)? If this executive order essentially requires every Federal 
agency to create a new definition for a floodplain this order would 
thus apply to all Federal activity and would also apply to private 
development that receives a Federal permit. I find that troublesome and 
disconcerting and feel that it is an expansive Federal overreach that 
will create confusion and conflict in the private market. Is your 
agency aware of all the chaos and confusion that will be caused if this 
executive order is implemented?
    Answer. More than 1,500 unique comments were provided during the 
recent public comment period on the draft Guidelines, and similar 
questions regarding the scope of the FFRMS were raised. Many of these 
comments expressed concern regarding how the Executive Order will 
affect private development. In addition, many of these comments 
expressed that the Government didn't go far enough to protect 
floodplains and Federal investment. The MitFLG is committed to 
considering the input of the individuals and organizations that 
provided their perspective on the issue. FEMA and the Federal 
interagency community, through the MitFLG, will analyze the comments 
received and respond, as appropriate, in the draft Guidelines. The 
MitFLG will provide public feedback on the types of comments received 
and how those were considered, adjudicated, and used to inform the 
policy decisions.
    After the Guidelines are released, each Federal agency will 
carefully consider how to apply the FFRMS to its programs 
appropriately, and agency processes may include additional 
opportunities for the public to provide input before making final 
decisions about implementing the FFRMS.
                             cybersecurity
    Question. The Departments' requested budget reduction for 
cybersecurity education programs is inconsistent with DHS's stated 
emphasis on the cybersecurity workforce and its specific goal of 
educating 1.7M students by 2021. The justification for the reduction is 
to serve higher priority cybersecurity efforts; however, proposed 
technology investments will not be useful if there is not a trained 
workforce to support those tools in future years.
    In February 2015, GAO released a report re-designating DHS and 
cybersecurity as ``high risk'' in the area of Ensuring the Security of 
Federal Information Systems and Cyber Critical Infrastructure. GAO 
noted that progress is being made in assessing the cybersecurity 
workforce and identifying critical shortages--mainly due to Congress 
passing The Homeland Security Cybersecurity Workforce Assessment Act, 
which requires DHS to identify cybersecurity positions and specialty 
areas with critical shortages in the DHS cybersecurity workforce. But 
assessing the problem is not an excuse for delaying or not taking 
actions to address the problem. In April 2015, the Partnership for 
Public Service published its report ``Cyber In-Security II: Closing the 
Federal Talent Gap. The report noted that the pipeline of potential new 
cyber talent was inadequate--nationwide demand still out strips supply. 
Specifically, even though the administration has continued to encourage 
more Americans to develop science, technology, engineering and 
mathematics (STEM) skills, efforts to grow the pipeline will take time 
to bear fruit, because the demand for cyber-related skills is projected 
to rise at an ever faster pace. In the fiscal year'15 DHS Congressional 
budget justification, DHS highlighted its leadership role in 
cybersecurity education. DHS ``leads the national effort for 
cybersecurity education, workforce planning, training, and professional 
development.'' DHS also stated that it would strengthen cybersecurity 
at the high school level and expand the pipeline of cybersecurity 
professionals entering the workforce--``affecting 1.7M students over 
the next 10 years.''
    The DHS Cybersecurity Education and Training Assistance Program 
(CETAP) is expected to provide training and education to approximately 
200K students this year and, if funded, 400K next year--significantly 
expanding the cybersecurity workforce pipeline. What is the Department 
doing to meet its goal of providing cybersecurity education and 
training to 1.7M students in order to expand the pipeline of 
cybersecurity professionals entering the workforce?
    Answer. The Department supports the previously stated goal of 
educating 1.7 million students by 2021--ensuring that the future 
workforce pipeline is able to meet the projected national demand. DHS 
leads several programs that serve a broad stakeholder base across the 
Nation, providing cybersecurity education programs that are flexible 
and responsive to meet the rapidly changing cyber environment and that 
also take into account today's fiscal constraints. As these initiatives 
develop and mature over time, the Department refines its strategies and 
processes to address identified gaps, maximize outreach, and ensure 
implementation success. Each of these programs is an integral factor in 
strengthening the Nation's cyber resilience and ensuring that there is 
a robust national cybersecurity pipeline.
    DHS believes that a critical component to success in this area is 
developing a pipeline of skilled cybersecurity personnel. In order to 
fill the most immediate needs, the Department focuses on outreach and 
engagement with higher education institutions where students are 
enrolled in a curriculum of study tied to science, technology, 
engineering, math, and cyber/computers (STEM-C). As part of developing 
a skilled workforce, students must be able to see where they fit into a 
cybersecurity career path and be aware of opportunities available to 
them to hone those skills or find employment. As detailed below, DHS 
programs such as the Centers for Academic Excellence and Scholarship 
for Service lend themselves to this type of engagement.
    During 6th-12th grades, a student (or through teachers or 
counselors) will have identified an aptitude in STEM-C subject areas 
and likely will have been encouraged to seek advanced placement 
coursework in those areas of study. DHS programs such as Cyber 
Competitions and the Integrated Cybersecurity Education Communities 
Project support increased student engagement in these formative grades. 
Engaging students early in their education careers will ensure a strong 
and sustained workforce pipeline that will meet mid-term and long-term 
operational workforce demands.
    A layered approach to education and workforce engagement that 
progresses from K-12 through higher education will enable DHS to reach, 
and potentially exceed, its goal of educating 1.7 million students in 
cybersecurity in 10 years. This is an update to previous methodologies 
and will ensure that DHS education programs address both immediate and 
future workforce needs.
    An overview of the Department's efforts in workforce and pipeline 
development is provided below.
Higher Education Programs
National Centers of Academic Excellence (CAE, Co-sponsored by the 
        National 
        Security Agency)
    The CAE program works to reduce vulnerability in our national 
information infrastructure by promoting higher education and research 
in Information Assurance (IA) and producing a growing pipeline of 
professionals with IA expertise in various disciplines. There are now 
more than 185 academic institutions with CAE designation in 43 States, 
the District of Columbia, and Puerto Rico.
Scholarship for Service (SFS, Co-sponsored by the National Science 
        Foundation)
    The SFS program provides scholarships to 58 universities across the 
country; students receive SFS scholarships for up to 2 years to study 
cybersecurity, after which they owe the Government a period of service 
equivalent to the length of their scholarship. This program is 
specifically called out in appropriations language and funding is 
required by the Department.
K-12 Education Program
The Integrated Cybersecurity Education Communities Project (ICEC)
    In fiscal year 2013, the Department issued the competitive 
Cybersecurity Education and Training Assistance Program (CETAP) grant 
in the amount of $5 million to fund the ICEC project to provide cyber 
education for teachers and students.
    In support of the National Initiative for Cyber Education (NICE), 
the ICEC project holds cyber education summer camps around the country, 
with the primary goal of educating middle school and high school 
teachers who return to their schools prepared to educate students on 
cyber-related content across multiple academic disciplines. Cyber 
education camps were held in four communities in the summer of 2014, 
with more than 35 high schools participating. Each high school sent 
students and teachers as participants. Upon completion of summer camp, 
the Department estimates each teacher will educate approximately 120 
students over the course of an academic year. Therefore, the 
anticipated impact was nearly 9,000 students during the summer of 2014.
    The initial funding in fiscal year 2013 and fiscal year 2014 
allowed for the development of the curriculum and training modules for 
teachers and students; this additional funding was required in fiscal 
year 2013 and fiscal year 2014 to complete these developmental 
activities. In fiscal year 2015, the Department plans to fund the ICEC 
project in the amount of $3.0 million, $2.0 million less than previous 
years, due to the culmination of the curriculum and training module 
development phase. fiscal year 2015 funding will continue to provide 
direct training, camps, and outreach to middle school and high school 
teachers and students. The various locations in which camps and 
workshops are held are geographically and socio-economically diverse.
    The following activities are planned for fiscal year 2015:
  --16 STEM: Explore Discover Apply Workshops geared toward teachers;
  --7 Cyber Discovery Camps geared toward students; and
  --1 Education Forum
    The grant also supports integration of cybersecurity topics into 
high school curricula, which high schools across the country can adopt 
and offer to numerous students each year. The Department plans to 
leverage this curriculum and provide free, on-demand training to 
teachers nationwide through the Federal Virtual Training Environment 
(FedVTE). Utilizing a virtual capability to reach teachers in any 
location, at any time, demonstrates the project's flexibility and 
outreach potential. Ultimately, the ICEC project serves as a force 
multiplier and a continuous return on investment as teachers who 
participate in the summer camps return to their schools and integrate 
cybersecurity into their classrooms.
Cyber Competitions
    DHS supports cyber competitions through its sponsorship of the 
annual Air Force Association CyberPatriot competition, steering middle 
and high school students toward cybersecurity careers and studies. 
Since 2009, the program has experienced per annum growth of more than 
20 percent. In 2014, registration for CyberPatriot VI exceeded 1,500 
teams, marking unprecedented growth for the program. This growth can be 
attributed to the inclusion of scouting troops and Boys and Girls Clubs 
organizations that were invited to field teams for the first time. 
Continuing the growth trend, DHS expects approximately 12,000 students 
to participate in 2015.
Training and Workforce Development Programs
The National Initiative for Cybersecurity Education Effort (NICE)
    The NICE mission is to raise cybersecurity awareness among all U.S. 
citizens, promote cybersecurity formal education, and evolve the 
cybersecurity professional field. These activities include public 
service campaigns, cybersecurity competitions, and offering tools and 
resources for developing cybersecurity skills and abilities among the 
current workforce.
National Initiative for Cybersecurity Careers and Studies (NICCS)/
        CyberU
    The DHS NICCS portal promotes the National Cybersecurity Workforce 
Framework (which provides a common taxonomy to ensure professional 
development of the Nation's cybersecurity workforce) by providing tools 
and resources for organizations focused on cybersecurity workforce 
development and information for individuals about cyber-security 
careers. The CyberU will promote adoption of professional development 
standards by equipping and connect users with resources in a more user-
friendly format. The CyberU portal will replace and improve upon the 
NICCS portal by hosting the Cybersecurity Training Catalog, a clearing 
house of cybersecurity-related education and training courses offered 
across the United States, and by providing easy access to the current 
FedVTE training portal (discussed further below).
Federal Virtual Training Environment (FedVTE)
    FedVTE is an online training platform that provides Federal 
cybersecurity and IT professionals with hands-on labs and training 
courses. Annually, FedVTE provides training to approximately 60,000 
cybersecurity professionals across the Federal Government. The 
environment is accessible from any Internet-enabled computer and is 
free to Federal users and their agencies. This program has saved the 
Federal Government $72 million annually compared to similar training 
provided by a private vendor.
Federal Cybersecurity Training Events (FedCTE)
    FedCTE provides training classes ranging from 1 to 3 days, which 
are conducted both in-person and virtually on a variety of 
cybersecurity topics. In fiscal year 2014, 467 individuals received 
training through FedCTE, and 1,370 individuals have received training 
since FedCTE's inception in 2010.
                          jones act compliance
    Question. The Jones Act is an important maritime law which requires 
that vessels be U.S.-built, U.S.-crewed, and U.S.-owned in order to 
transport merchandise between two points in the U.S. The economic and 
security benefits of the law can only be realized however when people 
comply with it. DHS is responsible for Jones Act enforcement. The Coast 
Guard verifies the nationality of vessel owners and crew, and Customs 
and Border Protection ensures the legal transportation of cargo.
    Our shared goal on this issue should be informed compliance, but 
that is not possible without active enforcement of the law. Certain bad 
actors who believe they will not be caught, or only receive a slap on 
the wrist if they are, will unfortunately make a business decision to 
break the law and thumb their nose at the Department. When that 
happens, U.S. mariners and shipyards suffer along with the Department's 
credibility. CBP's role in documenting violations and assessing and 
collecting penalties is essential to achieving deterrence of these 
violations and letting those bad actors know that there are 
consequences for illegal actions.
    Do you agree that CBP and the Coast Guard should enforce the 
requirements of the Jones Act?
    Answer. Yes, it is imperative that U.S. Customs and Border 
Protection (CBP) and the U.S. Coast Guard, as the two DHS agencies 
charged with enforcement of the Jones Act, both leverage their 
respective resources and roles to effect the utmost enforcement of this 
important law.
    Question. Do you agree that civil penalties are an important 
enforcement tool to protect against willful violations of the law?
    Answer. Yes, the assessment and collection of civil penalties is an 
extremely important tool to effectively deter violations of this law.
    Question. In order to effectively deter violations, do you agree 
that cases should be processed in a timely manner? Please explain your 
efforts to ensure timely processing of cases by CBP and any additional 
resources that may be required to accomplish that goal.
    Answer. Yes, in order to effectively deter violations, penalty 
cases should be processed in a timely manner. CBP works to adhere to 
standard response times for processing violations and responding to 
petitions, generally within 90 days of receiving all of the necessary 
information from relevant parties. CBP's Office of Field Operations 
constantly monitors the open cases report for all Fines, Penalties & 
Forfeiture Offices to ensure compliance with these standards. Various 
factors can impact the timeframes on these cases, including an 
interested parties' request for information, or a request from a party 
for an extension to research or obtain information from another party.
                aids to navigation servicing contracting
    Question. Mr. Secretary the United States Cost Guard has requested 
$1.5 billion to conduct Aids to Navigation operations. The Coast Guard 
is charged with the maintenance of over 50,000 Federal government-owned 
buoys, beacons, and other aids-to-navigation that mark 25,000 miles of 
waterways. The maritime sector contributes more than $650 billion 
annually to the U.S. gross domestic product and sustains more than 13 
million jobs. Nearly 100 percent of our overseas trade enters or leaves 
the U.S. by vessels navigating the marine transportation system. I am 
interested in the savings and efficiencies that could be gained through 
contracting some of aid to navigation services.
    What is the cost per hour to preform aid to navigation operations? 
Examples of which could include maintaining of government owned buoys 
and beacons.
    Answer. The $1.5 billion reported in the President's Budget crosses 
several appropriations. Approximately $1.1 billion of that figure is 
for operating expenses. The remainder is distributed to Reserve 
Training, Acquisition Construction and Improvements (AC&I), Research 
Development Testing and Evaluation (RDT&E), Medicare Eligible Health 
Care Fund (MERHCF) Contributions, and Retired Pay.
    As stated in the background, the Coast Guard is responsible for 
marking the 25,000 miles of coasts and waterways to facilitate the safe 
and efficient movement of commerce. This work requires a variety of 
assets (cutters, boats, aircraft, land units) and navigation hardware. 
Buoys range in size from 9x35 foot steel hulls weighing 18,000 pounds 
to 30 inch foam hulls weighing 115 pounds, and beacons include a wide 
variety of sizes and structures.
    While the Coast Guard has not calculated the hourly cost of 
servicing aids to navigation, it has published reimbursable rates for 
its assets in COMDTINST 7310.1 (series) manual, ``Hourly Rates for 
Cutters, Boats, and Aircraft.'' The hourly rate for a surface aids to 
navigation asset ranges from $7,305 per hour to $2,217 per hour, but 
these numbers should not be used to identify the cost to perform the 
aids to navigation mission, nor should this rate be considered when 
comparing the cost of a private entity performing the service. This 
rate is calculated to include personnel, maintenance, overhead costs 
associated with support of the asset, and an estimate for the total 
value of the Coast Guard command and control structure that enables all 
missions.
    Question. Has the Coast Guard considered contracting aid to 
navigation operations to private sector companies? If not, why?
    Answer. The Coast Guard has conducted several studies since 1990 
that examined accomplishing parts of the aids to navigation mission via 
commercial contracts. On each occasion, the Coast Guard concluded that 
the contracted services would be more expensive and less effective than 
using Coast Guard resources.
    Question. Many of the USCG vessels involved with aid to navigation 
operations are multi mission vessels, such as Law Endowment, Search and 
Rescue, and other national security operations, correct? If their aid 
to navigation missions with contracted to private sector organizations 
would these vessels be available to conduct more national security 
missions?
    Answer. All Coast Guard assets are multiple-mission capable. If a 
primary mission requirement was removed without commensurate decrease 
in operational hours, they could be used to augment other mission 
areas. However, in the specific case of ATON units, this has not been 
considered due to the cost prohibitive nature of privatizing this 
mission.
    Question. Additionally, while these vessels can perform multiple 
missions how many times have aid to navigation vessels been diverted to 
secondary missions while conducting aid to navigation activities?
    Answer. Coast Guard platforms performing the aids to navigation 
mission have been diverted to other missions. However, the actual 
number of times that this has occurred is not documented in any 
accessible form and therefore the actual number of these instances 
cannot be determined with any degree of accuracy.
                                 ______
                                 
              Questions Submitted by Senator Patrick Leahy
                              preclearance
    Question. One of the major obstacles to cross-border travel today 
is CBP passenger screening. Over the past couple years, DHS has made 
great progress in the construction of pre-clearance facilities. I am 
pleased that DHS has signed a pre-clearance agreement with Canada's 
Minister of Public Safety, Steven Blaney. While the Canadian Parliament 
must still act on this agreement, I am confident we are that much 
closer to making decisions on individual pre-clearance projects.
    Secretary Johnson, Vermont used to enjoy Amtrak service across the 
Canadian border to Montreal. One of the hurdles to restarting this 
service is safely and securely screening the train. We need help and 
support from CBP to make the construction of pre-clearance facilities 
happen. I understand that CBP staff have begun site visits for a number 
of projects. Can we count on your assistance to work with Vermont, New 
York and Quebec to make a pre-clearance facility in Montreal a reality?
    Answer. Yes, the new U.S.-Canada Land, Rail, Marine, and Air 
Transport Preclearance Agreement provides for authorities and 
jurisdiction for U.S. Customs and Border Protection (CBP) personnel 
operating within a potential rail environment. This agreement outlines 
that rail companies may request rail passenger preclearance. Such a 
request would be reviewed by each Party based on many considerations, 
including a secure corridor, resource and funding availability, and the 
availability of adequate facilities. CBP is committed to evaluating all 
preclearance expansion requests in a transparent and consistent manner. 
The four base categories of expansion evaluation criteria that will be 
used to review each applicant from Canada are outlined below:
    1. Security: Determine the homeland or national security benefit to 
the U.S.
    2. Facilitation: Determine the economic benefit to the U.S. and 
host country.
    3. Strategic Impact: Determine opportunities to enhance 
international partnerships and U.S. global influence.
    4. Feasibility: Determine the speed and ease with which potential 
preclearance locations can be set up and become operational.
    At the request of Amtrak, CBP reviewed a preliminary concept design 
with Amtrak and the Canada Border Services Agency. CBP has not entered 
into formal facility design discussions regarding a rail facility in 
Montreal. Further discussions concerning the possibility of 
establishing preclearance may occur once the preclearance agreement has 
entered into force and if requested by Amtrak, as provided by the 
agreement.
    Question. I understand a CBP team has also visited Toronto's Billy 
Bishop airport. The Homeland Security Appropriations bill for fiscal 
year 2015 exempts Canadian airports from any preclearance restrictions, 
including carrier requirements. Will you let me know if that language 
was unclear, or if the Department needs additional assistance from 
Congress on moving forward with pre-clearance at this location? If 
additional assistance is required, I'd ask that the Department work 
with my staff so we can resolve any outstanding issues standing in the 
way of adding additional pre-clearance location.
    Answer. CBP recently concluded its technical site visits to 
possible preclearance expansion locations in Canada, including Billy 
Bishop Toronto City Airport (April 13, 2015). The locations will be 
examined to determine the potential impact on national security, 
passenger facilitation, and on the achievement of long-term trade and 
travel goals. Additionally, we have partnered with Departments of State 
and Transportation to evaluate candidate airports, and their respective 
governments' support, through an open and deliberative process that 
heavily weighed air carrier competitive balance.
    For the current fiscal year, with the exception of countries with 
preclearance facilities in service prior to 2013, pursuing a new 
preclearance agreement requires the presence of an operating U.S. air 
carrier. The Department took seriously the concerns raised by Congress 
and U.S air carriers on the importance of seeking competitive balance 
at new preclearance locations. Therefore, with respect to considering 
expansion of preclearance operations at countries where such operations 
are already ongoing, DHS and CBP are focusing possible expansion on 
those locations that already maintain the presence of air passenger 
operations by a U.S. air carrier. Given the significant interest by 
multiple airports, this decision allows the Department to prioritize 
locations that provide preclearance opportunities to multiple air 
carriers.
    We continue to engage with airports at the technical level on the 
possibility of pre-clearance expansion, similar to Billy Bishop, even 
if the airports lack a U.S. carrier. Billy Bishop Airport will be 
evaluated and ranked alongside the other preclearance candidate 
airports. As part of that process, competitiveness factors, which 
include the presence of a U.S. carrier, will be an important part of 
the analysis. Accordingly, while the fiscal year 2015 appropriations 
bill eliminated the requirement of U.S. carrier presence for countries 
that have previously had preclearance locations, CBP continues to urge 
Billy Bishop to attract a U.S. carrier as that is an important 
evaluation factor for expansion locations.
    We will continue to work with Billy Bishop to assess the 
feasibility of the location for preclearance operations and support 
efforts to have U.S. air carriers consider operations at the airport. 
All of these efforts are contingent on the successful ratification of 
the new preclearance agreement by the Canadian Parliament and passage 
of the Civilian Extra-territorial Jurisdiction Act by the U.S. Congress 
prior to the new U.S.-Canada Land, Rail, Marine, and Air Transport 
Preclearance Agreement entering into force.
                        northern border staffing
    Question. I appreciate that CBP has been working hard to fill the 
2,000 positions for which Congress previously allocated funding. 
However, I remained concerned that staffing along the Northern Border 
remains lower than where it has been historically. Does the Department 
have plans to submit a proposal to Congress on how to fully meet these 
staffing needs?
    Answer. CBP is developing a plan and taking action to accelerate 
the hiring process for CBP Officers (CBPO) and Border Patrol Agents 
(BPA) required to maintain the proper level of security. CBPOs, based 
at the Nation's ports of entry, are responsible for screening all 
foreign visitors, returning American citizens, and imported cargo that 
enters the United States. BPAs, operating between the ports of entry, 
are responsible for safeguarding nearly 6,000 miles of land border the 
United States shares with Canada and Mexico, and more than 2,000 miles 
of coastal waters. CBP's plan will include information concerning 
current CBPO and BPA staffing levels, the current hiring pipeline, 
projected fiscal year 2015 CBPO and BPA attrition rates, and CBP 
frontline hiring challenges. The plan also will present information 
detailing CBP's efforts, recent and ongoing, to reengineer the 
frontline hiring process, streamline hiring processes, and reduce the 
cost and time-to-hire.
    Question. In the most recent round of staffing decisions, Vermont 
port of entries received 10 additional positions. I believe that hiring 
locally will help with the retention of CBPOs in Vermont. What efforts 
are in place by DHS in order to hire local residents when positions are 
available?
    Answer. CBP hires candidates to fill both law enforcement officer 
positions and non-law enforcement positions nationwide. CBP posts Job 
Opportunity Announcements (JOA) on USAJOBS, the U.S. Government's 
official website for listing civil service job opportunities with 
Federal agencies. The site is operated by the U.S. Office of Personnel 
Management. Consistent with qualifications, application requirements, 
and other considerations identified in each JOA, all individuals 
interested in the position advertised can apply to the JOA. In some 
instances, the JOA will limit the area of consideration for applicants 
to the local commuting area.
    Sustaining CBP frontline CBPO and BPA staffing levels requires 
annually attracting and assessing thousands of applicants to replace 
employee losses resulting from retirement and other attrition, as well 
as to fill any new positions funded or authorized by Congress. To meet 
these staffing requirements, CBP recruits nationwide and opens several 
JOAs each year. Individuals interested in CBPO and BPA positions will 
apply for a geographic area or specific location identified in the 
particular JOA.
    To promote a common work experience, all entry-level BPA hires 
begin their careers at a duty station on the Southwest Border. 
Similarly, CBP has begun efforts to focus entry-level CBPO hiring 
toward large and high-volume POEs to maximize pre- and post-academy 
training experiences. As part of their career progression, CBPOs and 
BPAs may pursue future promotional and reassignment opportunities to 
other duty locations, including their prior location of residence. CBP 
non-law enforcement position JOAs will identify the specific location 
where the selected individual will perform the position duties detailed 
in the announcement. Often, these JOAs will limit the area of 
consideration to candidates within the local commuting area.
    Question. What options are available to the Department to help 
incentive staff to fill positions and combat attrition in the hard-to-
staff areas on the Northern border?
    Answer. As appropriate and within spending limitations, CBP uses 
incentives (e.g., recruitment, retention, and relocation) to fill 
positions and retain employees in hard-to-fill duty stations, including 
those along the Northern border. A recruitment incentive may be paid to 
a newly appointed employee if the position is likely to be difficult to 
fill in the absence of an incentive. A retention incentive is another 
tool available when an agency has determined that an employee (or group 
of employees) would be likely to leave for a different position in the 
Federal service. Relocation incentives may be paid to a current 
employee who must relocate to accept a position in a different 
geographic area that the agency has determined likely to be difficult 
to fill in the absence of an incentive. Payment of these incentives may 
not exceed 25 percent of the employee's annual rate of basic pay and 
require the employee to sign a written service agreement prior to 
receiving the incentive.
                       laptop searches at border
    Question. Several Federal courts have recently brought to light the 
Department's practice of conducting forensic examinations of laptops 
and other electronic devices at the border without a warrant or even a 
reasonable suspicion of a crime. Several courts have rejected this 
approach, including the U.S. District Court for the District of 
Columbia just last week, holding that such an in-depth search of an 
electronic device requires a reasonable suspicion of criminal activity. 
As you know, these devices hold an almost unimaginable amount of highly 
personal information, as well as trade secrets, privileged 
communications, and other private data. Without legitimate suspicion of 
criminal activity, an individual should not have to surrender every 
intimate detail to the government simply because he or she crosses our 
border. Although I recognize the critical need to safeguard our 
borders, I am concerned with the privacy implications of this practice, 
and believe that routine border searches should not be used as a 
loophole to avoid the Fourth Amendment warrant requirement.
    What is the Department's current policy regarding border searches 
of laptops and electronic devices?
    Answer. CBP's policy on the border search of electronic devices is 
available online at: http://www.cbp.gov/sites/default/files/documents/
elec_mbsa_3.pdf. U.S. Immigration and Customs Enforcement's (ICE) 
policy is available online at: https://www.dhs.gov/xlibrary/assets/
ice_border_search_electronic_devices.pdf.
    Question. Does the Department plan to amend its policies in light 
of the Ninth Circuit's decision in United States v. Cotterman, and the 
D.C. District Court's recent decision in United States v. Kim?
    Answer. Officers and agents operating in the Ninth Circuit comply 
with the holding in United States v. Cotterman, 709 F.3d 952, 960 (9th 
Cir. 2013) (en banc), regarding reasonable suspicion for forensic 
searches of electronic devices at the border, and DHS continually 
evaluates its procedures to account for changing priorities and to make 
its operations more effective and efficient. In addition, DHS is 
consulting with the Department of Justice on whether the Government 
should pursue further review of the Kim decision.
                            family detention
    Question. I strongly believe that the administration's decision to 
expand family detention is wrong. The new oversight actions announced 
on May 13, 2015 do nothing to end or even scale back the use of this 
ill-advised policy. There is clear evidence that detention has a 
significant negative impact on the well-being and mental health of the 
mothers and children detained, especially given the violence many of 
them are fleeing and the trauma they have already endured. The 
Department's rationale for detention--that it serves as a deterrent--is 
both contrary to basic notions of due process and irrational. Even if 
family detention were an acceptable policy, we simply do not have 
enough beds to make it an effective deterrent. Instead, our policy 
subjects the unlucky few who arrive on the border when a detention bed 
happens to be free to months of detention at enormous cost to the 
taxpayer, while the vast majority who arrive when beds are full avoid 
detention all together.
    I am particularly troubled by the policy to detain families who 
have passed their credible fear interview. Why does DHS/ICE continue to 
detain families who have passed their credible fear interview?
    Answer. While the Immigration and Nationality Act (INA) allows for 
the detention of individuals subject to expedited removal who have 
established credible fear (see INA Sec. 235(b)(1)(B)(ii), 8 U.S.C. 
Sec. 1225(b)(1)(B)(ii)), ICE does not have a policy that requires 
detention. Rather, ICE makes discretionary custody determinations for 
families and individuals who have established a credible fear on a 
case-by-case basis, accounting for the unique aspects of each case and 
setting appropriate release conditions.
    Question. What is the current cost per day of detaining a family 
unit at the new family detention facility in Dilley, Texas? What is the 
cost for each individual? What is the expected cost per day for both a 
family unit and an individual when the facility is fully operational? 
What expenses are reflected in the above calculations?
    Answer. Due to the variable nature of the size of a family unit, 
ICE does not calculate costs per family unit, but rather only 
calculates costs on an individual basis. The cost per day to house 
individuals at the South Texas Family Residential Center in Dilley, 
Texas, is $313.00 as of March 2015, although it is expected to change 
as the year progresses and the contract reaches full capacity.
    The expenses for family residential centers include costs similar 
to those for detention facilities, such as facility staff, food, and 
medical and mental healthcare, as well as expenses for family-related 
services such as residential advisors, educational programs, short-term 
monitored care, expanded recreational facilities, and specialized 
counseling.

                          SUBCOMMITTEE RECESS

    Senator Hoeven. With that, we will adjourn the hearing.
    [Whereupon, at 3:58 p.m., Wednesday, April 29, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]

                                   - 
</pre></body></html>
